Office of
Inspector
General
Semiannual
Report to
the Congress
April 1, 1989 to
September 30, 1989



November 1, 1989
FOREWORD
This report, submitted pursuant to the Inspector General Act of 1978, sum-
marizes Office of Inspector General (OIG) activity over the 6-month period end-
ing September 30, 1989. It is my eighth Report to the Congress.
I am pleased to report that this period the OIG achieved many noteworthy accom-
plishments and reached several milestones in some of its longer-range objectives.
Audit recommendations to put funds to better use and to disallow costs exceeded
$133 million. Among our 27 prosecutions, one is of a businessman guilty of
racketeering and conspiracy, the first successful use of the Racketeer Influenced
and Corrupt Organizations (RICO) sanctions in a GSA OIG fraud investigation.
In another case, an OIG investigation resulted in the conviction, for mail fraud, of
a businessman who had been defrauding the Govemment for five years. Inter-
nally, we made significant progress toward our longer-range objectives of expand-
ing our usage of ADP equipment inventory and technology, and our nationwide
office modemization program.
While heartened by our accomplishments, we are mindful that each time we
refer a matter for prosecution, each time we determine that a contractor has not
been forthright, and each time we encounter inefficient or wasteful practices, it
means that someone, some process, or some system has failed. Accordingly, little
time is available to reflect on the past; so long as we are reporting accomplish-
ments, more work remains. We must enhance our capabilities to deploy preven-
tive measures and to serve as an early waming system to alert program officials to
emerging problem areas.
In the coming period, we plan to expand coverage of agency programs, seeking to
gain additional insight into the vulnerabilities of major agency operations. Our
Fisca11990 plans call for reviews of such operations as: the procurement pro-
cesses goveming mu1ti-biWon dollar multiple award schedule program and the
GSA delegations of authority that enable agencies to acquire ADP equipment and
systems. Special attention will also be given to new programs coming on line,
such as, the new Federal Telecommunications System and the small purchases
credit card program. We will also be working closely with agency management in
reviews conducted under the Federal Managers' Financial Integrity Act.
We recognize the challenges that we face. Fortunately, we enjoy the support of
Congress and the Office of Management and Budget, which continue to provide
the financial resources necessary to carry out our work. We also have a GSA
senior management team that recognizes the role of the Office of Inspector Gen-
eral and has been supportive and professional in our business dealings.




WILLIAMR. BARTON
Inspector General

October 31, 1989
INTRODUCTION AND OVERVIEW

A. Introduction                                               These audits advised PBS managers of:
                                                                •   The need to recover rent payments from tenant
This report, submitted pursuant to the Inspector General            agencies who occupied space rent-free.
Act of 1978, as amended, chronicles the activities of the       •   Underutilized space in a leased facility.
General Services Administration (GSA) Office of Inspec-
tor General (OIG) between April I, 1989 and                     •   Opportunities to improve monitoring practices
September 30, 1989. It is the twenty-second Report to               over contractor payments.
the Congress since the appointment of GSA's first In-           •   The potential to put $13.1 million in funds to bet-
spector General, and the first under the new reporting re-          ter use on four contractor claims for damages and
quirements mandated by the Inspector General Act                    on a custodial services proposal.
Amendments of 1988.
                                                              In addition, an OIG investigation resulted in the con-
GSA manages much of the Federal Government's real es-         viction of a former GSA employee for embezzling Gov-
tate assets, including acquiring sites and buildings, leas-   ernment money.
ing space, ensuring protection and safety, and
maintaining and operating buildings. In addition, GSA         Detailed information on these and other activities is
operates a worldwide procurement and supply system,           presented in Section II.
manages travel and transportation programs, and trans-
fers and disposes of unneeded Government-owned per-
sonal and real property. Finally, it establishes              Federal Supply Service
Governmentwide policy in such areas as Federal pro-
curement, space use, and telecommunications and ADP           OIG coverage of the Federal Supply Service (FSS) primar-
services.                                                     ily focused on multiple award schedule contracting. We
                                                              performed 47 pre award reviews of FSS contracts with an
Most of GSA's work is performed for other agencies who        estimated value of almost $228 million. Two particu-
pay for these services directly to contractors or through     larly significant audits advised management of opportu-
full cost reimbursements to GSA. In this process, while       nities to put $8.4 million in funds to better use.
billions of Federal dollars flow through GSA-arranged
procurements, only a very small amount represents             In a series of internal reviews, the OIG assisted manage-
GSA's appropriated funds. Because much of the OIG's           mentin:
work centers on preaward audits of these procurements,          •   Improving controls over the shelf-life program.
the amounts recommended as "funds to be put to better
use" will principally benefit other Federal agenciesj they      •   Eliminating problems caused by the faulty design
will not have a material effect on GSA's appropriated               of a GSA ordering form.
funds.                                                        As a result of OIG investigations, the Department of
                                                              Justice:
                                                                •   Successfully prosecuted the owner of a gas cylin-
B. Overview                                                         der supply company on racketeering charges.
                                                                •   Convicted a transportation firm owner for mail
The following paragraphs provide an overview of OIG                 fraud.
audit and investigative coverage of the Agency, as well as
a summary of OIG accomplishments. In addition, this             •   Successfully prosecuted the owner of an auto
section highlights significant OIG prevention activities.           body repair company for submitting false state-
                                                                    ments.
                                                              Detailed information on these and other activities is
1. Audit and Investigative Coverage of                        presented in Section III.
   GSA Programs
Audit and investigative coverage of GSA programs iden-        Information Resources Management Service
tified a number of opportunities for more efficient and
effective Agency operations. Overall, this report reflects    The OIG's coverage of the Information Resources Man-
a strong commitment on the part of GSA management to          agement Service (IRMS) continued to focus on its con-
make those improvements.                                      tracting function, particularly the multiple award
                                                              schedule program. One noteworthy audit advised man-
                                                              agement of the opportunity to put $42.4 million in funds
Public Buildings Service                                      to better use. Another significant audit resulted in a
                                                              management decision, relative to a procurement of auto-
This period, 43 percent of the OIG audit reports issued       mated data processing equipment and software, to put
addressed Public Buildings Service (PBS) programs.            $1.2 million in funds to better use.
 A series of internal evaluations of microcomputer secu-        •   27 case referrals accepted for criminal prosecu-
 rity advised management that microcomputer data and                tion and 3 case referrals accepted for civillitiga-
 software were vulnerable to loss.                                  tionj
 Detailed information on these and other activities is pre-     •   22 indictmentslinformations on criminal refer-
 sented in Section IV                                               ralsj
                                                                •   27 successful criminal prosecutionsj
                                                                •   2 settlements/judgments and 7 civil fraud com-
 Other GSA Coverage                                                 plaintsj

 The OIG issued 37 internal reviews evaluating organiza-        •   20 contractor suspensions and 32 contractor de-
                                                                    barmentsj
 tions such as the Office of Administration, the Federal
 Property Resources Service, and the Office of the Comp-        •   17 reprimands, 1 suspension, and 2 terminations
 troller. These reviews addressed such diverse areas as             of GSA employeesj
 payment procedures, A-76 programs, real property dis-          •   26 Inspector General subpoenas j and
 posal, accounts receivables, printing operations, and im-
 prestfunds.                                                    •   366 legislative initiatives and 100 regulations and
                                                                    directives reviewed.
 One significant review advised management that vendor
 payments and customer billings, under the Value Added' Management decisions to put funds to better use, man-
 Network Services Program, may not be accurate or valid. agement decisions agreeing with questioned costs, vol-
 Another review advised management of the need to en- untary recoveries, court-ordered recoveries, and
 hance controls over a regional A-7 6 program.              investigative recoveries totaled $80,156,298 during the
                                                            second half of FY 1989.
 Detailed information on these and other activities is pre-
 sented in Section V                                        Detailed information on these and other activities is
                                                            presented in Sections VI and VII.


 2. Overall OIG Accomplishments                               3. Prevention Activities
                                                              As detailed in Section VIII, the OIG's program to prevent
 OIG accomplishments this period included:                    fraud, waste, and mismanagement encompasses a wide
     •   431 audit reportsj                                   variety of activities.
     •   $133,173,421 in recommendations to put funds         Highlights of our efforts during the period included:
         to better use and questioned costSj
                                                                •   Completion of 34 preaward advisory reviews of
     •   $72,522,661 in management decisions to put                 leases involving annual rentals in excess of
         funds to better usej                                       $200,000.
     •   $7,633,637 in management decisions agreeing            •   Integrity Awareness Briefings for 783 GSA em-
         with questioned costs, voluntary recoveries, and           ployees.
         court-ordered and investigative recoveriesj
                                                                •   Receipt of 64 Hotline calls/letters and referral of
     •   191 investigative cases opened and 202 closedj             60 of these complaints for further action.




ii
                                                                      Page                                                                        Page
INTRODUCTION AND OVERVIEW ................. .                                SECTION VI-STATISTICAL SUMMARY OF
                                                                             GIG ACCOMPLISHMENTS .................................                  16
REPORTING REQUIREMENTS ..........................                       iv
                                                                               A. ole Accomplishments .................................             16
SECTION I-ORGANIZATION, STAFFING,                                              B. Summary Statistics .......................................        17
AND BUDGET .......................................................       1   SECTION VII--REVIEW OF LEGISLATION
 A. Organization ..................................................      1   AND REGULATIONS ............................................          24
  B. Office Locations ............................................       1     A. Legislation/Regulations Reviewed .............                   24
  C. Staffing and Budget .......................................         1     B. Significant Comments .................................           24
SECTION II-PUBLIC BUILDINGS SERVICE..                                   2    SECTION VIII-OTHER OIG ACTIVITIES .......                             25
  A. Overview of Ole Activity.. ...... ............... .....            2      A. ole Prevention Program...... ......... ....... ........          25
  B. Significant Audits and Investigations .........                    2      B. Projects Sponsored by the pcm ...................                26
  C. Significant Preaward Audits ........................               3
  D. Statistical Highlights ....................................        4    APPENDICES
  E. Significant Audits From Prior Reports .......                      4    APPENDIX I-AUDIT REPORT REGISTER ........                             28
SECTION Ill-FEDERAL SUPPLY SERVICE .....                                 7   APPENDIX II-DELINQUENT DEBTS ...............                           50
  A. Overview of Ole Activity............................                7
  B. Significant Audits and Investigations .........                     7   APPENDIX Ill-SUMMARY OF OIG
  C. Significant Preaward Audits .. ......................               9   PERFORMANCE DURING FISCAL YEAR 1989                                    51
  D. Statistical Highlights ....................................        10   LIST OF TABLES
  E. Significant Audits From Prior Reports .......                      10     1. Summary of Ole Audits ..... ............. ....... .......         17
SECTION IV-INFORMATION RESOURCES                                               2. Management Decisions on Ole Audits .......                        18
MANAGEMENT SERVICE ............ ................ .......               11    . 3. Management Decisions on Ole Audits
  A. Overview of ole Activity............................              11           With Recommendations That Funds Be
  B. Significant Audits ..........................................     11            Put to Better Use ........................................     19
  C. Significant Preaward Audits ........................              11      4. Management Decisions on Ole Audits
  D. Statistical Highlights ....................................       12           With Questioned Costs .............................             19
  E. Significant Audits From Prior Reports .......                     12      5. Management Decisions on Financial
                                                                                    Recommendations .. ......... ......... ....... ..........      20
SECTION V-OTHER GSA COVERAGE ...........                               13      6. Investigative Workload ..................................        21
 A. Overview of ole Activity............................               13      7. Distribution of Cases Opened This Period..                       21
  B. Significant Audits ..........................................     13      8. Summary of Ole Subject Referrals ..............                  22
  C. Statistical Highlights ....................................       14      9. Summary of Criminal and Civil Actions .....                      23
 D. Significant Audits From Prior Reports .......                      15    10. Criminal and Civil Recoveries ............ ..........             23




                                                                                                                                                    iii
REPORTING REQUIREMENTS
The table below cross-references the reporting require-                                Senate Report No. 96-829 relative to the 1980 Supple-
ments prescribed by the Inspector General Act of 1978,                                 mental Appropriations and Rescission Bill is also cross-
as amended, to the specific pages where they are ad-                                   referenced to the appropriate page of the report.
dressed. The information requested by the Congress in



                                                                Source                                                                            Page

     Inspector General Act
      1. Section 4(a)(2)-Review of Legislation and Regulations .............................................. .                                     24
      2. Section 5(a)(1 )-Significant Problems, Abuses, and Deficiencies .............................. .                                       2,7,11,13
      3. Section 5(a)(2)-Recommendations With Respect to Significant Problems,
           Abuses, and Deficiencies .............................................................................................              2,7, 11,13
      4. Section 5(a)(3)-Prior Recommendations Not Yet Implemented ................................ .                                          4,10,12,15
      5. Section 5(a)(4)-Matters Referred to Prosecutive Authorities .................................... ..                                       21
      6. Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information
           Was Refused ...................................................................................................................   None This Period
      7. Section 5(a)(6)-List of Audit Reports ..............................................................................                      28
      8. Section 5(a)(7)-Summary of Each Particularly Significant Report .......................... ..                                         2,7,11,13
      9. Section 5(a)(8)-Statistical Tables on Management Decisions on
           Questioned Costs ...........................................................................................................             19
     10. Section 5(a)(9)-Statistical Tables on Management Decisions on
           Recommendations That Funds Be Put to Better Use ............................................. ..                                         19
     11. Section 5(a)(1 O)-Summary of Each Audit Report Over 6 Months Old for Which
           No Management Decision Has Been Made ......................................................... " .. ..                            None This Period
     12. Section 5(a)(11 )-Description and Explanation for Any Significant Revised
           Management Decision ..................................................................................................            None This Period
     13. Section 5(a)(12)-lnformation on Any Significant Management Decisions With
           Which the Inspector General Disagrees ................................................................... ..                      None This Period
     Senate Report No. 96-829
      1. Resolution of Audits ............................................................................................................         18
      2. Delinquent Debts ................................................................................................................         50




iv
SECTION I-ORGANIZATION, STAFFING,
AND BUDGET

Pursuant to the Inspector General Act of 1978, an Office           advice on matters under OIG review. These attor-
of Inspector General (OIG) was established within the              neys also manage the civil referral system, formu-
General Services Administration (GSA) on October 1,                late OIG comments on existing and proposed
1978. As currently configured, the OIG consists of four            legislation, and assist in litigation.
offices that function cooperatively to perform the mis-        •   The Office of Administration, a centralized unit
sions legislated by the Congress.                                  that oversees the development of OIG policies,
                                                                   formulates OIG comments on proposed regula-
                                                                   tions and GSA policy issuances, provides data
                                                                   systems support, and handles budgetary, admin-
                                                                   istrative, and personnel matters.
A. Organization
The OIG utilizes a functional organizational structure to
provide nationwide coverage of GSA programs and activ-
                                                             B. Office Locations
ities. It consists of:
                                                             The OIG is headquartered in Washington, DC, at GSA's
  •   The Office of Audits, a multidisciplinary unit         Central Office building. Field audit and investigations
      staffed with financial and technical experts who       offices are maintained in the following cities: Boston,
      provide comprehensive coverage of GSA opera-           New York, Philadelphia, Atlanta, Chicago, Kansas City,
      tions (internal or management audits) as well as       Fort Worth, San Francisco, and Washington, DC. In addi-
      GSA contractors (external or contract audits).         tion, the Office of Audits has a resident office in Auburn,
      Headquarters directs and coordinates the audit         Washington. The Office of Investigations has resident of-
      program, which is performed by the thirteen field      fices in Auburn, Cleveland, and Los Angeles.
      audit offices and one resident office.
  •   The Office of Investigations, an investigative unit
      that manages a nationwide program to prevent
      and detect illegal and/or improper activities in-
                                                             c.    Staffing and Budget
      volving GSA programs, personnel, and opera-            The OIG's approved Fiscal Year (FY) 1989 budget was ap-
      tions. Operations officers at headquarters             proximately $25 million. At the end of FY 1989, the OIG
      coordinate and oversee the investigative activity      had obligated $24.8 million or 99.4 percent of its FY 1989
      of nine field investigations offices and three resi-   funds.
      dent offices.                                          The OIG started FY 1989 with a total on-board strength
  •   The Office of Counsel to the Inspector General,        of 415 full-time employees. At the end of the Fiscal Year,
      an in-house legal staff that provides opinions and     the OIG's full-time staff totaled 423.




                                                                                                                       1
    SECTION II-PUBLIC BUILDINGS SERVICE

The Public Buildings Service (PBS) manages much of the            GSA was not collecting rent from a tenant agency, had
Federal Govemment's real estate assets nationwide. Its            not obtained proper approval for a sole source procure-
responsibilities range from constructing, purchasing,             ment, and allowed the tenant agency to participate in the
and leasing space for Govemment use to maintaining                procurement process without a proper delegation of au-
and protecting that space. In the second half of FY 1989,         thority. We found that because PBS personnel did not en-
the total available funding authority of the Federal Build-       ter lease data into the automated billing system, GSA
ings Fund was over $2.6 billion. During the same period,          was not billing a tenant agency for the space it had occu-
PBS obligated almost $1.8 billion of these funds.                 pied since May 1988. We estimated that the monthly
                                                                  rental rate for the occupied space is approximately
Commensurate with this level of activity, the OIG de-             $11,000.
voted some 74,917 direct staffhours pursuing 581 audit
and investigative assignments. These statistics reflect           We also found that the Real Estate Division Director in-
39 percent of total OIG direct staffhours and over                appropriately approved a sole source procurement for a
41 percent of all work assignments.                               lease modification. Since the dollar value of the entire
                                                                  lease exceeded the Director's approval authority, the
                                                                  lease modification required approval from the Competi-
    A. Overview of DIG Activity                                   tion Advocate.
    This period, almost 50 percent of the internal audit re-      Finally, we found that the Real Estate Division allowed
    ports issued by the OIG addressed PBS programs and ac-        the tenant agency to negotiate for the space. This oc-
    tivities. We presented findings relative to leasing issues,   curred because the GSA Realty Specialist who had been
    contract administration, fire and safety concerns, repair     responsible for the procurement was hired by the tenant
    and alteration projects, building construction, mainte-       agency part way through the acquisition process. The
    nance contracts, and buildings management. Some of            agency requested that this employee be allowed to com-
    the more significant reviews assisted PBS managers in         plete the leasing action. While we found no specific pro-
    taking action relative to:                                    hibition to this practice, we consider it to be highly
                                                                  inadvisable. We believe that if such action is taken, GSA
      •   Backcharging tenant agencies for space occupied         should limit the authority, delineate responsibilities, es-
          rent-free.                                              tablish milestones,-and oversee work performed.
      •   Utilizing space that is not needed by a tenant          The April 6, 1989 report recommended that the Regional
          agency or returning the underutilized space to the      Administrator:
          lessor.
                                                                    •   Bill the tenant agency for space it is occupying
      •   Improving the monitoring of contractor pay-                   and backcharge for overdue rental payments.
          ments.
                                                                    •   Instruct Real Estate Division personnel to seek
    The OIG also issued 120 contract audit reports relative             the prescribed approvals for other than full and
    to PBS programs, many evaluating construction                       open competition.
    claims, change orders, alteration projects, proposals for
    architect and engineering services, and lease escalation        •   ASSign lease acquisition functions to personnel of
    proposals. In total, these reports contained recommen-              other agencies only through written documents
    dations that funds be put to better use and questioned              that clearly state their authority, reporting re-
    costs of $34 million.                                               quirements, and limitations.
    OIG investigators completed 74 cases involving PBS            The Regional Administrator provided responsive action
    programs, operations, or employees. Of these cases,           plans for implementing the report recommendations. A
    47 percent involved allegations of white collar crimes.       management decision was achieved on June 27, 1989.


    Bo Significant Audits and                                     Lease Administration
       Investigations                                             As part of its ongoing assessment of GSA's leasing pro-
                                                                  gram, the OIG evaluated the administration of one lease.
This section summarizes significant intemal audits and            This lease covers approximately 212,800 square feet of
investigations dealing with PBS. Significant preaward             space with an annual rental of $4,663,000.
contract audits are presented in Section C.
                                                                  The review disclosed that, while the space was high
                                                                  quality and had no major physical deficiencies, some of
Acquisition of Leased Space                                       the space was unneeded and the tenant agency had been
                                                                  underbilled for the space. We found that 36,500 square
As part of an overall regional review of controls over            feet of office space, with an annual rental value of
lease payments, the OIG identified a lease for which              $707,000, was not being fully utilized by the tenant

2
agency. Further, tenant agency officials informed the au-      monitored, with the result that GSA overpaid $64,000 to
ditors that they intended to transfer some functions to        contractors for services that were not provided. Another
another location beginning in mid 1989. At that time,          OIG audit report, issued in 1986, had identified similar
they estimated that about 60,000 square feet of space          problems. In response to this previous review, regional
would be returned to GSA. We believe that GSA leasing          management issued a policy letter outlining new control
officials should meet with the tenant agency to develop        procedures. But, we found that these procedures were
plans to utilize the space or else return it to the lessor.    not followed by the Contracts Division, at least partly
                                                               due to staffing turnovers and low staffing levels.
We also found that the tenant agency had been under-
billed for space that had been incorrectly classified as of-   We also found that contract award actions were not al-
fice space when, in fact, it was special use space. We esti-   ways initiated in a timely fashion. This necessitated at
mated that the tenant agency was undercharged                  least one hasty procurement of an interim contract as
$768,470 during the prior three fiscal years.                  well as extensions to existing contracts. We believe that
                                                               untimely procurement actions could lead to hurried and
Our May 17, 1989 report directed seven recommenda-             mistake-prone procurements, more interim contracts,
tions to the Assistant Regional Administrator, Public          and less than satisfactory services from contractors.
Buildings Service, to correct identified deficiencies.
These included recommendations to:                             Our April 3, 1989 report directed seven recommenda-
                                                               tions to the Assistant Regional Administrator, Public
  •   Coordinate current and future space require-
                                                               Buildings and Real Property. These included recommen-
      ments with tenant agency officials.
                                                               dations to:
  •   Initiate actions to collect prior year underbillings.
                                                                 •   Follow established internal controls for monitor-
The Regional Administrator provided responsive action                ing contractor payments, including verifying the
plans for implementing the report recommendations. A                 accuracy of payment calculations.
management decision was achieved on August 10,
                                                                 •   Use a standard system to monitor milestones, in-
1989.
                                                                     cluding contract expiration, in the procurement
                                                                     cycle.
Embezzlement Conviction
                                                               The Regional Administrator provided responsive action
On July 19, 1989, a former GSA employee was sentenced          plans for implementing the report recommendations. A
in U.S. District Court after pleading guilty to embezzling     management decision was achieved on June 27, 1989.
Government money. She was placed on two years proba-
tion and ordered to make restitution in the amount of
$3,858.
The conviction resulted from a GSA OIG investigation
initiated after a GSA official alleged that the employee's
                                                               c.    Significant Preaward Audits
time sheets reflected overtime hours in excess of those        The Ole's preaward audit program provides information
actually worked. The investigation disclosed that the          to contracting officers for use in negotiating contracts.
employee, an office timekeeper, had falsified time and         The pre-decisional, advisory nature of preaward audits
attendance records for two other employees and, in re-         distinguishes them from other audits. This period, the
turn, one of those employees falsified the timekeeper's        Ole performed preaward audits of 114 PBS contracts
records. The scheme involved alterations to the time-          with an estimated value of almost $127 million. The au-
cards after supervisors had already signed the cards.          dit reports contained $33.6 million in financial recom-
                                                               mendations.
The other two employees were both indicted on charges
of theft and false statements and, in addition, one was
indicted for conspiracy to defraud. Since both of these        Recommendations That Funds Be Put to
employees were on probation for previous cocaine use
convictions, they were allowed to plead guilty to proba-       Better Use
tion violations in return for prosecutors deferring the
fraud charges for six months.                                  The OIG performed five significant audits involving four
                                                               claims and a proposal to provide custodial services. De-
All three of the employees subsequently resigned their         tails on the five audits, with a total audited value of
GSA positions.                                                 $21.3 million, are as follows:
                                                                 e   At the request of a Regional Administrator, the
Contract Administration                                              OIG audited a claim for increased costs due to
                                                                     Government-caused delays on the construction
This period, the OIG completed a regional review of the
                                                                     of a Federal building. The contractor alleged that
award and administration of guard service contracts. The
                                                                     change orders and other Government actions ex-
region administered 19 guard service contracts valued at
                                                                     tended the contract work period, resulting in in-
$5.7 million.
                                                                     creased costs. The audit report advised the
For the most part, we found that guard services were                 contracting officer that costs contained in the
properly contracted for. However, we identified pay-                 claim were overstated or unallowable, and rec-
ments that were incorrectly computed and inadequately                ommended an adjustment of $5.7 million to the

                                                                                                                      3
         claimed amount. Most of the adjustment was in                                       •    The OIG review of a pricing proposal submitted
         the following categories: productivity loss, labor                                       in response to a GSA solicitation for custodial
         escalation, material, overhead, and profit.                                              services at a Federal facility found that costs con-
    •   The OIG also audited three claims related to the                                          tained in the contractor's proposal were over-
        expansion of a Federal facility. The subcontrac-                                          stated or unallowable. The audit report advised
        tors alleged that change orders, other Govern-                                            the contracting officer that, based on these find-
        ment actions, and differing site conditions                                               ings and a GSA technical evaluation, we recom-
        extended the contract work period, resulting in                                           mended adjustments totaling $2.6 million in the
        increased costs. The audit reports advised the                                            following categories: direct labor and labor over-
        contracting officer that costs contained in the                                           head, materials and equipment, other direct
        proposals were overstated, unallowable, or un-                                            costs, and general and administrative expenses.
        supported. Based on our findings, along with
        those included in GSA technical evaluations, we                                  D. Statistical Highlights
        recommended reductions totaling $4.8 million in
        the claimed amounts for increased labor costs and                                The following table compares OIG activity and accom-
        overhead, equipment, subcontractor costs, gen-                                   plishments within PBS to the overall GSA totals for the
        eral and administrative expenses, and profit.                                    period.




                                                      Activity                                                            PBS         All GSA
        Audit Reports Issued ......................................................................................        188            423
        Recommendations That Funds Be Put to Better Use ............................... .                              $34,849,848   $118,594,428
        Questioned Costs ...........................................................................................    $1,303,776    $14,578,993
        Management Decisions Agreeing With Recommendations That Funds
          Be Put to Better Use ...................................................................................     $37,684,103    $72,522,661
        Management Decisions Agreeing With Questioned Costs ..................... ..                                    $3,202,042     $6,031,624
        Audits Subject to Management Decision Requirements Older Than
          6 Months Without Management Decision ............................................... .
        Implementation Reviews Finding Unimplemented Recommendations ..                                                     1               3
        New Investigative Cases ................................................................................           67             191
        Criminal Referrals (Subjects) ...................................................................... ..            40              88
        Civil Referrals (Subjects) ...............................................................................         28              49
        Administrative Referrals (Subjects) ............................................................. .                23              78
        Suspension/Debarment Referrals (Subjects) ............................................ .                           30              58
        Indictmentsllnformations/Complaints ......................................................... .                     8              29
        Successful Criminal Prosecutions ............................................................... .                  8              27
        Civil Settlements/Judgments ........................................................................                                2




E. Significant Audits From                                                                1. Significant Audit Awaiting
                                                                                             Management Decision
   Prior Reports
Under the Agency's audit management decision process,
the Audit Resolution and Intemal Controls Division,                                       Rental Overpayments
GSA's Office of Administration, is responsible for ensur-
ing implementation of audit recommendations after a
management decision has been reached. That office fur-                                    Period First Reported: October 1, 1987 to March 31, 1988
nished the following status information.
Ten audits highlighted in prior Reports to the Congress                                  This OIG review found that a lessor had proposed, and
have not been fully implemented. One report is awaiting                                  the contracting officer erroneously accepted, unallow-
a management decision; one report is not being imple-                                    able costs for escalation when computing a rent increase.
mented in accordance with currently established mile-                                    A management decision has not been obtained for the re-
stones; and the remaining eight reports are being                                        port because it pertains to an ongoing OIG investigation.
implemented in accordance with currently established                                     As such, the report has been removed from GSA's man-
milestones.                                                                              agement decision process.

4
           2. Significant Audit Not Being                                agree with the actual status of the space. The report con-
                                                                         tained seven recommendations; six have been imple-
     ~        Implemented According to                                   mented.
              Established Milestones                                     The remaining recommendation involves the selling or
                                                                         outleasing of a Federal building. Implementation is
     ~     Construction Contract Administration                          scheduled for December 1989.

           Period First Reported: April1, 1987 to September 30, 1987     Excessive Lease Payments
       This review of the construction of a Federal building ad-
                                                                         Period First Reported: April1, 1988 to September 30, 1988
       vised GSA management of the need to enforce the re-
 "     quirements for schedules and price breakdowns in                  This review of escalation payments processed for a lease
   t\. construction contracts. The OIG made 13 recom-                    found that the lessor had received $212,998 in excess es-
 ~ mendations; 11 have been implemented.                                 calation payments. The report contained one recom-
                                                                         mendation; it has not yet been implemented.
   ~   The remaining two recommendations involve obtaining
   ~   a determination from an Architect and Engineering Defi-           The recommendation, which requires deductions from
   ~   ciency Committee and resolving any time consider-                 rental payments until the overpayment amount is
       ations. Both recommendations were originally                      reached, is scheduled for completion in July 1990.
    ~ scheduled for completion in June 1988, then implemen-
   "\l tation was revised to September 1989. As of                       , Payments For Overtime Services in Leased
   n.. September 30, 1989, the Audit Resolution and Internal
                                                                           Space
   "   Controls Division had not received documentation that
       the recommendations had been implemented.           .
      ~                    t   ~+ ~PeriodFirstReported:October1,                                           1987 to March 31, 1988
      ", U:>      ~                           /;($     /'~ ~This consolidated report advised GSA that, while most
      p                                            ,               I     payments for building overtime services were handled
'1.'~;1. 3. Significant Audits Being Implemented                         effectively, internal controls required strengthening. Ac-
 l.1f,.,, According t 0 Est ablish ed MOl1 est 0 n es                    cordingly, the OIG made 17 recommendations; 16 have
                                                                         been implemented.
                                                                         The remaining recommendation involves recovering the
           System Development Project                                    cost of overtime services provided tenant agencies at a
                                                                         border station. Implementation is now scheduled for Oc-
           Period First Reported: October 1, 1988 to March 31, 1989      tober 1989.
           This review identified the need to ensure that a logical,
           progressive approach is taken on system development           Energy Conservation in Leased Space
           projects.The report contained seven recommendations;
           four have been implemented.                                   Period First Reported: April1, 1986 to September 30, 1986
           The remaining three recommendations involve revi-             This review of energy usage in leased buildings advised
           sions to GSA Handbooks; they are scheduled for comple-        GSA that, while notable progress had been made in iden-
           tion in December 1989.                                        tifying and monitoring energy usage problems, addi-
                                                                         tional opportunities for energy conservation still existed.
                                                                         The OIG made ten recommendations; eight have been
           Improving PCB Monitoring                                      implemented.
           Period First Reported: October 1, 1988 to March 31, 1989      The two remaining recommendations involve the instal-
                                                                         lation of sensor devices and the performance of energy
           This review concluded that a GSA region needed to im-         conservation building studies. They are scheduled to be
           prove monitoring practices over PCB removal and dis-          fully implemented by January 1990 and April 1990, re-
           posal. The report contained two recommendations; one          spectively.
           has been implemented.
           The remaining recommendation, which requires the im-          Excessive Tax Escalation Payments
           plementation of a systematic method of follow-up for ob-
           taining late or missing documents, is scheduled for           Period First Reported: April1, 1985 to September 30, 1985
           completion in October 1989.
                                                                         This June 4, 1985 review disclosed that the tax escala-
                                                                         tion clause contained in GSA leases, coupled with some
           Vacant Space Management                                       local taxing practices, resulted in exorbitant Govern-
                                                                         ment tax escalation payments. The report contained
           Period First Reported: October 1, 1988 to March 31,1989       eight recommendations; six have been implemented.
           This review advised management that the computer-             The two remaining recommendations generally involve
           generated list of space assigned to tenant agencies did not   specific actions to reduce GSA's liability for excessive

                                                                                                                                   5
tax escalation payments. The recommendations were           reports had been fully implemented by September 1988.
originally scheduled for completion in November 1985        The remaining report contained four recommendations;
and March 1986, respectively. Implementation dates for      three have been implemented.
both recommendations were renegotiated to June 1988
and again to May 1990.                                      Implementation of the remaining recommendation,
                                                            which involves the installation of a new fire alarm sys-
Fire and Life Safety Systems                                tem in a Federal facility, is generally proceeding in accor-
                                                            dance with the action plan, although delays have been
Period First Reported: October 1, 1983 to March 31, 1984    experienced and revised implementation dates have
A series of seven OIG reviews identified deficiencies in    been granted. Full implementation is now scheduled for
fire and life.safety systems in GSA-controlled space. Six   December 1989.




6
SECTION III-FEDERAL SUPPLY SERVICE

The Federal Supply Service (FSS) operates a Govemment-          prison, fined $100,000 and, under the Racketeer Influ-
wide service and supply system that contracts for and           enced and Corrupt Organizations (RICO) statute, was or-
distributes billions of dollars worth of supplies, materi-      dered to forfeit $500,000 in property. This was the first
als, and services for customer agencies each year. In the       use of RICO sanctions in a GSA OIG fraud investigation.
second half of FY 1989, FSS obligated over $25 million in
direct operating expense appropriations. Estimated sales        The sentencing stemmed from a joint GSA OIG and De-
through the General Supply Fund during the same period          fense Criminal Investigative Service investigation initi-
were almost $1.3 billion.                                       ated after receipt of allegations of over billings for gas
                                                                cylinder services at one military base. The investigators,
Consistent with this level of activity, the OIG expended        due to their knowledge of the number of companies
some59,255 direct staffhours pursuing 441 audit and in-         owned by the subject, suspected that the overbillings
vestigative assignments. These statistics reflect               might not be confined to the one base. They, therefore,
31 percent of total OIG direct staffhours and approxi-          placed controlled shipments of several hundred com-
mately 31 percent of all work assignments.                      pressed gas bottles into company plants and were able to
                                                                determine that approximately 40 military commands
                                                                were involved. The investigation disclosed that the com-
A.. Overview of OIG Activity                                    pany owner conspired with several of his relatives to bill
                                                                the Government for pressure testing not performed and
This period, OIG audit coverage of FSS primarily focused        for parts not installed, and to furnish gas falsely certified
on contracting activities, particularly pre award audits of     as meeting purity requirements. The overbillings and
multiple award schedule contracts. We issued                    false certifications involved aviators' breathing devices,
69 contract audit reports recommending that                     fire extinguishers, and other gas cylinders. Consensual
$15.8 million in funds be put to better use and question-       monitoring of a meeting between the owner and a busi-
ing costs of $7.5 million.                                      ness associate, who was cooperating with the investiga-
In a series of internal audit reports issued this period, the   tion, confirmed that the owner not only knew of the
OIG presented findings in a variety of FSS program areas,       overbillings but had, in fact, directed the submission of
including supply center operations, contract administra-        false statements to Government officials.
tion, donated property, fleet management, and depot ac-         The subject had originally been scheduled for sentencing
tivities.                                                       in November 1988. He failed to appear in court at that
The OIG completed 72 investigative cases involving FSS          time and was declared a fugitive. He has since been ap-
programs, operations, or employees. Of these cases,             prehended and faces additional charges due to his flight.
49 percent involved allegations of white collar crimes.         Previously, the owner's son had been sentenced to
Notably, one investigation, conducted jointly with the          6 years in prison and fined $10,000 after pleading guilty
Defense Criminal Investigative Service, resulted in the         to racketeering and conspiracy; a hearing will determine
conviction of the owner of a gas cylinder repair and serv-      the amount of RICO forfeitures assessed against him.
icing company on racketeering charges. The owner billed         Three other relatives involved in the scheme had been
the Government for services not performed and parts not         sentenced to various lengths of probation after pleading
provided.                                                       guilty to conspiracy charges.
Another investigation resulted in the conviction of a           In addition to the criminal penalties, the defendants and
transportation firm owner for mail fraud. The firm sub-         the companies were suspended from conducting busi-
mitted falsified delivery documents to GSA, resulting in        ness with the Government. Five of the individuals in-
inflated payments of over $200,000.                             volved in this case have been debarred. Debarment
                                                                actions against ten business entities are pending.
B. Significant Audits and
   Investigations                                               Fraud Conviction

This section summarizes significant intemal audits and          On July 28, 1989, the owner of a transportation firm was
investigations dealing with FSS. Significant preaward           sentenced in U.S. District Court after pleading guilty to
contract audits are presented in Section C.                     mail fraud. He was sentenced to 3 years in prison
                                                                (30 months suspended) and 3 years probation, and was
                                                                ordered to pay almost $400,000 in restitution.
Racketeering Convictions
                                                                The conviction resulted from an extensive 5-year OIG
On July 28, 1989, the owner of 13 gas cylinder repair and       investigation initiated after a GSA official alleged that
servicing firms was sentenced in U.S. District Court af-        the firm submitted falsified delivery documents relating
ter pleading guilty to racketeering and conspiracy to de-       to a freight hauling contract held with GSA. The investi-
fraud the Government. He was sentenced to ten years in          gation disclosed that the company owner had directed a

                                                                                                                            7
massive fraud scheme involving freight shipments to             personnel had experienced problems with the form and
over 50 locations. Over a 3-year period, the company al-        requested a review.
tered bills of lading to falsify shipment weights and in-
cluded charges for services not performed. GSA relied           Our review found that the design and quality of the form
upon these documents when paying the company and, as            caused problems in the data entry, processing, and mail-
a result, paid an inflated amount for the freight ship-         ing operations. Specific problems included:
ments.                                                            •   Data Entry. The unevenly applied chemical coat-
                                                                      ing on the form caused some data not to be im-
OIG personnel reviewed thousands of billing documents
                                                                      printed onto the form. Further, forms were
during the course of the investigation to determine the               received from the supplier with curled edges that
extent of the overbillings. This effort required the use of           caught on the imprinter, forcing it to stop. This
computer programs jointly designed by a U.S. Attorney's               necessitated that an employee be available to re-
Office and OlG staff. We were able to calculate that GSA              set the imprinter each time it stopped.
had overpaid the company some $200,000 for the fraudu-
lent billings.                                                    •   Processing. FSS personnel had to manually sepa-
                                                                      rate the form into its component parts and review
A civil referral of the case was made to the U.S. Attor-              each form for legibility and completeness. When
ney's Office, and is pending.                                         data were missing, employees had to open the
                                                                      self-mailers to add the information, adding to
Shelf-life Program at Distribution Center                             postage costs since they then had to be placed in
                                                                      hand-addressed envelopes. This additional work
An OIG review of a Wholesale Distribution Center                      led to such a backlog of unprocessed purchase or-
(WDq disclosed that controls over the shelf-life pro-                 ders that the reviews were halted.
gram required strengthening. We found that items did
not have the correct shelf-life date marked; were stored          •   Mailing. Postal Service equipment would often
                                                                      mutilate the flimsy forms. Also, because the self-
at temperatures, and in conditions, that were contrary to             mailers did not meet Postal Service require-
manufacturer's instructions; and were not issued using                ments, GSA was assessed additional postage
the required first-in-first-out basis. We also found that re-
                                                                      charges. We estimated that GSA could have in-
quired shelf-life tests and inspections were not per-
                                                                      curred an additional $87,000 in postage charges
formed or properly documented. Finally, items that                    during FY 1988.
exceeded their useful life were not disposed of in a timely
fashion, resulting in outdated items being shipped to           Besides GSA's problems with the form, a survey of ven-
customer agencies.                                              dors who had recently been sent purchase orders dis-
                                                                closed that 81 percent had complaints about illegible or
Our June 19, 1989 audit report directed eighteen recom-         missing data on the forms. Therefore, vendors some-
mendations to the Assistant Regional Administrator,             times shipped the wrong item or quantity of items, or
Federal Supply Service, to correct identified deficiencies.     delayed shipment until orders could be clarified.
These included recommendations that WDC manage-
ment:                                                           Our April 10, 1989 audit report recommended that the
                                                                Commissioner, Federal Supply Service, redesign GSA
    •   Ensure that shelf-life code changes are promptly        Form 3186 to eliminate the specific problems with data
        made and that containers are marked per pre-
                                                                entry, processing, and mailing of the form.
        scribed instructions.
    •   Remove special storage items and stock these            The Commissioner agreed with the recommendations
        items only at a distribution center that can store      in the draft report. We are awaiting a management deci-
        stock in the required environment.                      sion on the recommendations.

    •   Strengthen controls over the selection and ship-
        ment of shelf-life items.
    •   Ensure the performance and documentation of re-
                                                                False Statement Conviction
        quired surveillance tests.
                                                                On July 14, 1989, the owner of an auto body repair com-
    •   Promptly dispose of items declared unfit for is-        pany pled guilty in U.S. District Court to submitting
        sue.                                                    false statements to the Government. Sentencing is
The Regional Administrator generally agreed with the            scheduled for October 1989.
recommendations in the draft report. We are awaiting            The conviction stemmed from an OIG investigation that
management decisions on the recommendations.                    was initiated after receipt of an allegation that an auto
                                                                body repair firm had submitted multiple estimates on
Purchase Order Form                                             the same job in order to secure GSA contracts. The inves-
                                                                tigation disclosed that the company owner had submit-
GSA Form 3186 is used to order supplies from vendors            ted forged third-party estimates so that his company
for replenishing stock at GSA depots and for direct deliv-      would be the lowest bidder for vehicle repairs. GSA re-
ery to customer agencies. Several pages of this form are        lied upon these estimates in awarding the company 24
designed to serve as self-mailers. A Regional Administra-       repair contracts, valued at over $27,000, between No-
tor advised the OIG that regional Federal Supply Service        vember 1985 and August 1986.

8
The investigators found that a number of the shops iden-      property consisted of boats, motors, a tractor, a band
tified as losing bidders did not exist. A handwriting anal-   saw, and clothes having an original acquisition cost of
ysis of both estimates from losing bidders and those          $95,200.
submitted by the subject revealed that the handwriting
on a number of the losing estimates was the same as that      The individual was a local police chief who was autho-
                                                              rized to purchase surplus property from a State property
on the subject's bids. Further, other losing estimates had
                                                              assistance agency for a township. However, he also
been prepared in the same format employed by the com-
                                                              bought property for his own personal use and provided
pany, only the prices differed.
                                                              other private individuals with desired items from the
                                                              surplus property inventory.
Contract Management
                                                              In addition to the criminal penalties, the subject was sus-
An OIG evaluation of a regional FSS Contract Manage-          pended from doing further business with the Govern-
ment Program disclosed that the Program is generally be-      ment. Debarment action on the individual is pending.
ing accomplished in accordance with established
procedures. However, we noted that improvements were
needed in internal controls to more effectively manage
the program and to ensure compliance with applicable
guidelines.
                                                              c.    Significant Preaward Audits
                                                              The OIG's preaward audit program provides information
The review found that Quality Assurance Specialists
                                                              to contracting officers for use in negotiating contracts.
(QAS) did not always make required visits to contractor       The pre-decisional, advisory nature of preaward audits
sites to check on the quality of products being pur-          distinguishes them from other audits. This period, the
chased. As a result, contractors may not have supplied        OIG performed preaward audits of 47 FSS contracts with
the quality of goods specified in their GSA contracts. We
                                                              an estimated value of almost $228 million. The audit re-
also found that GSA did not promptly follow up on com-        ports contained $15.5 million in financial recommenda-
plaints from customer agencies concerning defective           tions.
material received from suppliers so that the defective
materials could be quickly replaced.
Our August 10, 1989 report directed five recommenda-          Recommendations That Funds Be Put to
tions to the Assistant Regional Administrator, Federal        Better Use
Supply Service, to correct identified deficiencies. These
included recommendations to require regional officials        Two especially significant OIG audits involved multiple
to ensure that:                                               award schedule contracts, with total estimated
                                                              Government-wide sales of $88.6 million. The OlG eval-
  •   Contractor sites are visited as required, and a for-    uated discount schedule and marketing data submitted
      mal policy for scheduling site visits is developed.
                                                              in response to two GSA solicitations: one for industrial
  •   Quality deficiency corrections are documented in        furniture, and the other for office machines. The first au-
      accordance with applicable regulations.                 dit report advised the contracting officer that discounts
                                                              offered to GSA were substantially lower than those
  •   Follow-up actions on customer complaints are
      closely monitored to ensure timely completions.         granted the Government under the recently expired con-
                                                              tract with the same firm, even though the Government's
The Regional Administrator agreed with the recom-             share of the firm's annual sales merited "most favored
mendations in the draft report. We are awaiting man-          customer" status. This report also advised that the firm
agement decisions on the report recommendations.              had proposed FOB destination shipping terms to GSA al-
                                                              though that is contrary to its usual commercial prac-
                                                              tices. The other report advised the contracting officer
megal Conversion of Federal Surplus Property                  that the contractor offered higher discounts to commer-
                                                              cial customers and dealers than were disclosed in the
On June 23, 1989, a Federal donee was sentenced in U.S.
District Court after being convicted of mail fraud. He        firm's offer to GSA. It further advised the contracting of-
                                                              ficer that, during the current contract period, the firm
was sentenced to 90 days in prison and 18 months proba-
                                                              granted price reductions to commercial customers that
tion, ordered to perform 300 hours of community serv-
ice, and fined $4,000.                                        were not passed along to Government purchasers. This
                                                              violated the price reduction clause in the contract. Both
The conviction resulted from an OIG investigation into        of these reports also advised the contracting officers that
irregularities involving a local recipient in the GSA Do-     several of the offered products may not meet the test of
nated Property Program. The investigators found that an       commerciality. Based on these findings, the OIG recom-
individual had illegally converted Federal surplus prop-      mended adjustments totaling $6.9 million and
erty to his private use or the private use of others. This    $1.5 million, respectively.




                                                                                                                        9
D. Statistical Highlights                                                             plishments within FSS to the overall GSA totals for the
                                                                                      period.
The following table compares OIG activity and accom-



                                                   Activity                                                            FSS         All GSA
     Audit Reports Issued ......................................................................................         94            423
     Recommendations That Funds Be Put to Better Use ............................... .                              $15,830,470   $118,594,428
     Questioned Costs ...........................................................................................    $7,453,473    $14,578,993
     Management Decisions Agreeing With Recommendations That Funds
       Be Put to Better Use ...................................................................................     $20,867,859    $72,522,661
     Management Decisions Agreeing With Questioned Costs ...................... .                                    $1,777,033     $6,031,624
     Audits Subject to Management Decision Requirements Older Than
       6 Months Without Management Decision ................................................
     Implementation Reviews Finding Unimplemented Recommendations ..                                                                     3
     New Investigative Cases ................................................................................           48             191
     Criminal Referrals (Subjects) ........................................................................             37              88
     Civil Referrals (Subjects) ...............................................................................         13              49
     Administrative Referrals (Subjects) ............................................................. .                15              78
     Suspension/Debarment Referrals (Subjects) ............................................ .                           27              58
     Indictmentsllnformations/Complaints ......................................................... .                    20              29
     Successful Criminal Prosecutions ................................................................                  19              27
     Civil Settlements/Judgments ........................................................................                2               2




E.. Significant Audits From                                                           One of the remaining recommendations requires the de-
                                                                                      velopment of a monitoring system and is scheduled for
                                                                                      completion in January 1990. Another recommendation
    Prior Reports                                                                     involves contracting officer reviews of internal manage-
                                                                                      ment records. Implementation is scheduled for Decem-
Under the Agency's audit management decision process,
                                                                                      ber 1990. The other two recommendations involve the
the Audit Resolution and Intemal Controls Division,                                   development of a comprehensive pre award procurement
GSA's Office of Administration, is responsible for ensur-                             automation system. They are scheduled to be imple-
ing implementation of audit recommendations after a
                                                                                      mented by December 1992.
management decision has been reached. That office fur-
nished the following status information.
Two significant audits from prior Reports to the Con-                                  Customer Supply Center Operations
gress are not implemented. Both are being implemented
in accordance with currently established milestones.                                   Period First Reported: October 1, 1987 to March 31, 1988
                                                                                      This December 9, 1987 review disclosed several opera-
Multiple Award Schedule Program                                                       tional and procedural areas that required attention. The
                                                                                      report contained 27 recommendations; 26 have been im-
Period First Reported: October 1, 1988 to March 31, 1989                              plemented.
This review identified the need for GSA action to im-                                 The remaining recommendation requires the sectioning
prove the identification of the Government's office ma-                               off of the Customer Supply Center area in the facility by
chine needs. The report contained five recommenda-                                    installing a wall, fence, or equivalent structure. Full im-
tions; one has been implemented.                                                      plementation is now scheduled for December 1989.




10
SECTION IV-INFORMATION RESOURCES
MANAGEMENT SERVICE

The Information Resources Management Service (IRMS)         were not prepared, and backup data were not stored at
coordinates and directs a comprehensive Govemment-          remote sites. As a result, the regions' microcomputer
wide program for managing and procuring automated           data and software were vulnerable to unauthorized ac-
data processing (ADP) and telecommunications equip-         cess and potential loss.
ment and services. In the second half of FY 1989, IRMS
obligated over $16 million in direct operating expense      In three audit reports, dated June 5, June 14, and July 6,
appropriations. Estimated sales through the Information     1989, respectively, we offered recommendations to the
Technology Fund during the same period were almost          cognizant Regional Administrators to correct identified
                                                            deficiencies. The recommended actions included:
$514 million.
Collectively, the OIG expended some 46,293 direct staff-
                                                              *   Provide systems managers and users with formal
                                                                  security training.
hours pursuing 223 audit and investigative assignments.
These statistics reflect 24 percent of total OIG direct       *   Require security evaluations, contingency plan-
staffhours and approximately 16 percent of total work as-         ning, off-site storage of backup tapes, and soft-
signments.                                                        ware inventories.
                                                            We are awaiting management decisions on the recom-
                                                            mendations in the three reports.
A. Overview of OIG Activity
This period, OIG audit coverage of IRMS continued to
emphasize contracting activities, particularly preaward
audits of multiple award schedule contracts. We issued
                                                            c.    Significant Preaward Audits
92 contract audit reports recommending that                 The OIG's preaward audit program provides information
$67,914,110 in funds be put to better use and question-     to contracting officers for use in negotiating contracts.
ing $5,821,744 in costs. Notably, a single OIG preaward     The pre-decisional, advisory nature of preaward audits
audit resulted in a recommendation to put $42.4 million     distinguishes them from other audits. This period, the
in funds to better use.                                     OIG performed preaward audits of 73 IRMS contracts
Internal reviews focused on security over computer sys-
                                                            with an estimated value of over $740 million. The audit
                                                            reports contained $67.9 million in financial recommen-
tems. Three noteworthy reviews advised management
                                                            dations.
that microcomputer data and software were vulnerable
to unauthorized access and potential loss.
OIG investigators completed 11 cases this period involv-    $1.2 Million in Funds Put to Better Use
ing IRMS programs, operations, and employees; most in-
volved white collar crimes.                                 On April 26, 1989, GSA management successfully nego-
                                                            tiated pricing concessions of $1.2 million from an ADP
                                                            equipment firm. The successful negotiation stemmed
Be Significant Audits                                       from an OrG audit of the firm's $8 million pricing pro-
                                                            posal in response to a GSA solicitation for general pur-
This section summarizes significant internal audits         pose ADP equipment. Our audit report had advised the
dealing with IRMS operations. Significant preaward con-     contracting officer that the firm's cost or pricing data
tract audits are presented in Section C.                    were overstated. We recommended reductions of
                                                            $1.5 million, principally for direct materials and general
                                                            and administrative expenses.
Microcomputer Security
OIG evaluations of microcomputer data and software          Recommendations That Funds Be Put to
protection in three GSA regions found that one region       Better Use
had adequate protection, except for a need to store
backup data at a remote site, while the other two regions   The OIG performed three other especially significant au-
were not in compliance with agency requirements. We         dits involving multiple award schedule contracts. Total
found that the majority of the systems managers in these    estimated Government-wide sales under these contracts
two regions had not received formal security training,      were almost $536 million. The OIG evaluated discount
complete inventories of software had not been accom-        schedule and marketing data submitted in response to
plished, periodic security evaluations were not per-        two GSA solicitations for the purchase of general pur-
formed in accordance with prescribed procedures,            pose ADP equipment and software, and to one solicita-
required contingency plans for emergency situations         tion for commercial radios, paging systems, and radio

                                                                                                                    11
equipment. One audit report advised the contracting of-                                offered to GSA, in our opinion the firm's rationale for not
ficer that the information presented in the discount                                   offering GSA equivalent discounts was not justified. The
schedule and marketing data sheets was not current, ac-                                three reports recommended that $42.4 million,
curate, or complete, and that discounts offered to com-                                $3.6 million, and $7.2 million, respectively, in funds be
mercial customers exceeded those offered to GSA. We                                    put to better use.
also advised that the firm's discount practices were in-
consistent with the policy disclosed to the Government.
The second audit report advised the contracting officer
that the Government was not being granted "most fa-
vored customer" status even though its sales more than                                 D. Statistical Highlights
qualified GSA for the top-level of discounts offered by
the firm. The third audit report advised the contracting                              The following table compares OIG activity and accom-
officer that, while the firm's offer disclosed that dis-                              plishments within IRMS to the overall GSA totals for the
counts offered to commercial customers exceeded those                                 period.

                                                   Activity                                                           IRMS         All GSA
     Audit Reports Issued ......................................................................................         99            423
     Recommendations That Funds Be Put to Better Use .............................. ..                              $67,914,110   $118,594,428
     Questioned Costs ...........................................................................................    $5,821,744    $14,578,993
     Management Decisions Agreeing With Recommendations That Funds
       Be Put to Better Use ...................................................................................     $13,970,699    $72,522,661
     Management Decisions Agreeing With Questioned Costs ...................... .                                    $1,052,540     $6,031,624
     Audits Subject to Management Decision Requirements Older Than
       6 Months Without Management Decision .............................................. ..
     Implementation Reviews Finding Unimplemented Recommendations ..                                                      1              3
     New Investigative Cases ............................................................................... .           14            191
     Criminal Referrals (Subjects) ....................................................................... .             10             88
     Civil Referrals (Subjects) ...............................................................................           8             49
     Administrative Referrals (Subjects) ............................................................ ..                  5             78
     Suspension/Debarment Referrals (Subjects) ............................................ .                             1             58
     Indictmentsllnformations/Complaints ..........................................................                       1             29
     Successful Criminal Prosecutions ............................................................... .                                 27
     Civil Settlements/Judgments ........................................................................                                2


E. Significant Audits From                                                             equipment owned by GSA and leased to other Federal
                                                                                       agencies. The report contained seven recommendations;
   Prior Reports                                                                       five have been implemented.
                                                                                      One of the remaining recommendations requires the
Under the Agency's audit management decision process,                                 preparation and maintenance of equipment control
the Audit Resolution and Internal Controls Division,                                  records. It was scheduled for completion in
GSA's Office of Administration, is responsible for ensur-                             September 1989. As of September 30, 1989, the Audit
ing implementation of audit recommendations after a                                   Resolution and Internal Controls Division had not re-
management decision has been reached. That office fur-                                ceived documentation that the recommendation had
nished the following status information.                                              been implemented. The other recommendation requires
                                                                                      the updating of lease digests; it is scheduled for comple-
Two IRMS audits highlighted in prior Reports to the
Congress are not fully implemented. One report is not                                 tion in November 1989.
being implemented in accordance with currently estab-
lished milestones, while the other is being implemented                                2. Significant Audit Being bnplemented
in accordance with currently established milestones.
                                                                                          According to Established Milestones
1. Significant Audit Not Being                                                         Telecommunications Systems Management
   bnplemented According to                                                            Period First Reported: October 1, 1985 to March 31, 1986
   Established Milestones                                                              This OIG review concluded that IRMS needed to
                                                                                       strengthen its oversight role relative to Government
Inventory Management                                                                   telecommunications systems. We made 12 recom-
                                                                                       mendations; 11 have been implemented.
Period First Reported: October 1,1988 to March 31,1989
                                                                                       The remaining recommendation, which involves the de-
This OIG review disclosed that IRMS had not estab-                                     velopment and issuance of technical manuals, is sched-
lished sound inventory management practices over ADP                                   uled for full implementation in June 1990.

12
SECTION V-OTHER GSA COVERAGE

Other GSA services and staff offices, such as the Federal    vendors were not checked against corresponding receiv-
Property Resources Service, the Office of the Comptrol-      ing reports and purchase agreements. Further, GSA did
ler, and the Office of Administration, comprised the fo-     not prepare customer billing documents in a timely fash-
cus for the remainder of the OIG's efforts this period.      ion. On the average, these documents were not prepared
The OIG devoted some 11,753 direct staffhours pursuing       until almost three months after the vendor was paid. In
162 audit and investigative assignments within these         addition, IRMS did not always ensure that customer
other areas of GSA. These figures reflect 6 percent of to-   agencies billings recovered the total costs incurred in op-
tal OIG direct staffhours and 12 percent of all work as-     erating the VANS Program. For example, FY 1988 bill-
signments.                                                   ings did not include an overhead charge to recover
                                                             administrative expenses. As a result of these circum-
                                                             stances, GSA could not ensure the accuracy and validity
A. Overview of OIG Activity                                  of payments to the contractor; and untimely reimburse-
                                                             ment from customer agencies has created an unneces-
OIG coverage of the Federal Property Resources Service,      sary negative cash flow for the VANS Program.
the Office of the Comptroller, the Office of Administra-     The September 28, 1989 audit report directed seven rec-
tion, and other GSA organizations consisted primarily of     ommendations to the Acting Commissioner, Informa-
internal management reviews. These reviews resulted in       tion Resources Management Service, and to the
findings and recommendations in areas such as payment        Comptroller. These included recommendations to:
procedures, A-76 programs, accounts receivable opera-
tions, real property disposal, printing operations, and        ..   Ensure that GSA officials obtain documentation
imprest funds.                                                      of the contractual arrangements between cus-
                                                                    tomer agencies and the contractor, and customer
An especially noteworthy review of the Value Added                  certification of receipt of the invoiced services
Network Services Program advised management that                    prior to approving disbursements for VANS
laws, regulations, and procedures for processing vendor             services.
payments and customer billings were not complied
with. The OIG concluded that GSA could not ensure the          ..   Prepare customer billing documents at the same
accuracy and validity of payments to contractors.                   time, or as close as possible to, the submission of
                                                                    documents authorizing vendor payments.
Another review identified that one GSA region needed to
improve controls over its A-76 program. We recom-            We are awaiting management decisions on the recom-
mended actions to ensure compliance with applicable          mendations.
policy and procedures.
The OIG also completed 45 investigations involving the       Regional A-76 Program
personnel, programs, and operations in these GSA areas.
                                                             The Office of Management and Budget (OMB) Circular
                                                             A-76 requires that Federal agencies evaluate their activi-
B.. Significant Audits                                       ties to determine which functions should be contracted
                                                             out to the private sector. OMB Circular A-76 prohibits
This section summarizes significant intemal audits in-       the performance of a commercially available activity by
volving the programs and operations of the remaining         Federal employees unless Federal performance can be
GSA services and staff offices.                              shown to be more economical than private sector perfor-
                                                             mance.
                                                             This period, the OIG completed an evaluation of one
Financial Management Controls                                GSA region's A-76 program to assure compliance with
                                                             applicable policy and procedures. The review concluded
The Value Added Network Services (VANS) Program al-          that, while the region had completed the A-7 6 process for
lows Federal agencies to acquire data communication          many projects, certain aspects of the program still re-
services directly from commercial companies. GSA's In-       quired attention.
formation Technology Fund initially finances the costs
of the VANS services. Later, GSA bills the customer          We found that the region did not have documentation to
agencies, and is reimbursed, for these services.             support that all regional activities were considered for re-
                                                             view; had not established milestone completion dates
This period, the OIG completed a review of the financial     for projects under review; and had not entered estimated
management controls over payment and billing opera-          costs to perform A-76 studies into the tracking system.
tions of the VANS Program. The review questioned IRMS        Further, the region had not provided formal training to
and Office of Finance compliance with applicable laws,       personnel working on A-76 projects. Finally, wefoundno
regulations, and procedures for processing vendor pay-       documentation that required implementation audits
ments and customer billings. Specifically, invoices from     were performed once a decision had been made to keep a

                                                                                                                      13
function in-house. As a result, management could not be                                    the timeliness of collection actions and the validity of
sure that all activities were properly identified as to com-                               account balances were needed.
mercial availability; required studies were accomplished
in a timely manner, adequately documented, and accu-                                       We found that collection actions for delinquent cus-
                                                                                           tomers did not adhere to established procedures. For ex-
rately reported; and in-house operations of commercially
available activities were in compliance with their bid                                     ample, final demand letters were not sent to delinquent
cost estimate.                                                                             customers within prescribed timeframes, delinquent ac-
                                                                                           counts were not turned over to collection agencies, and
Our June 16, 1989 audit report recommended that the                                        Federal agencies were not held responsible when their
Assistant Regional Administrator, Office of Administra-                                    authorized contractors failed to pay GSA for supplies. We
ti@n:                                                                                      also found that credit balances on customer accounts
     •    Maintain records that identify each regional ac-                                 were not resolved in compliance with prescribed proce-
          tivity and indicate whether it is commercially                                   dures, and that old debit accounts (established prior to
          available.                                                                       account responsibility being transferred to the finance
                                                                                           center) may not be valid.
     •    Establish required milestone schedules for each
          activity to be reviewed.                                                         Our July 24, 1989 audit report recommended that the As-
                                                                                           sistant Regional Administrator for Administration:
     •    Enter the estimated cost of performing studies
          into the tracking system.                                                           •     Send final demand letters to delinquent cus-
                                                                                                    tomers in a timely manner and send delinquent
     •    Require formal training for personnel preparing
                                                                                                    non-Federal accounts to collection agencies.
          A-76 documents.
                                                                                              •     Bill Federal agencies when their authorized con-
     •    Perform documented implementation audits of
                                                                                                    tractors fail to pay for services provided by GSA.
          functions retained in-house.
                                                                                              •     Resolve accounts with credit and debit balances
The Regional Administrator concurred with the recom-
                                                                                                    within ninety days.
mendations in the draft report. We are awaiting man-
agement decisions on the recommendations.                                                  The Regional Administrator concurred with the recom-
                                                                                           mendations in the draft report. We are awaiting man-
                                                                                           agement decisions on the recommendations.
Non-Federal Receivables
The OIG evaluated a GSA regional finance center's con-
                                                                                           c.       Statistical Highlights
trols over non-Federal Automated Data Processing Fund                                     The following table compares OIG activity and accom-
receivables. The review concluded that the center's in-                                   plishments in other GSA areas to the overall GSA totals
ternal controls were adequate, but that improvements in                                   for the period.



                                                       Activity                                                         Other GSA    All GSA
         Audit Reports Issued ......................................................................................       42            423
         Recommendations That Funds Be Put to Better Use .............................. ..                                          $118,594,428
         Questioned Costs ...........................................................................................                $14,578,993
         Management Decisions Agreeing With Recommendations That Funds
           Be Put to Better Use ...................................................................................                  $72,522,661
         Management Decisions Agreeing With Questioned Costs ...................... .                                      $9         $6,031,624
         Audits Subject to Management Decision Requirements Older Than
           6 Months Without Management Decision ............................................... .
         Implementation Reviews Finding Unimplemented Recommendations ..                                                    1              3
         New Investigative Cases ................................................................................          62            191
         Criminal Referrals (Subjects) ...................................................................... ..            1             88
         Civil Referrals (Subjects) ...............................................................................                       49
         Administrative Referrals (Subjects) ............................................................. .               35             78
         Suspension/Debarment Referrals (Subjects) ........................................... ..                                         58
         Indictments/Informations/Complaints ......................................................... .                                  29
         Successful Criminal Prosecutions .............................................................. ..                               27
         Civil Settlements/Judgments ........................................................................                              2




14
De Significant Audits From                                  Internal Controls Require Strengthening

   Prior Reports                                            Period First Reported: October 1, 1988 to March 31, 1989

Under the Agency's audit management decision process,       This OIG review found that, while a GSA printing plant
the Audit Resolution and Internal Controls Division,        was generally operating in compliance with policy and
GSA's Office of Administration, is responsible for ensur-   procedures, some internal controls needed to be
ing implementation of audit recommendations after a         strengthened. The report contained two recommenda-
management decision has been reached. That office fur-      tions; neither has been implemented.
nished the following status information.
                                                            The two recommendations involve actions to ensure
With regard to GSA services and staff offices other than    that established procedures to account for operating
PBS, FSS, and IRMS, only one significant audit from a       equipment are followed and to include internal controls
prior Report to the Congress is not fully implemented. It   in the Printing Management Information System. Full
is being implemented in accordance with established         implementation for both recommendations is scheduled
milestones.                                                 for October 1989.




                                                                                                                 15
SECTION VI-STATISTICAL SUMMARY OF
OIG ACCOMPLISHMENTS

The previous sections of this report presented OIG activ-    in recommendations that funds be put to better use and
ity and accomplishments by GSA service and staff office.     $14,578,993 in questioned costs.
In the pages that follow, overall OIG accomplishments
are comprehensively reported. To facilitate cross-           Based on audit reports issued in this and prior periods,
referencing, the GSA organizational orientation is main-     management agreed to put $72,522,661 in funds to bet-
tained in these summary statistics. However, there is        ter use and to recover $6,031,624 in questioned costs.
not a one-to-one correspondence between the data re-
ported by GSA organization and the overall statistics, be-   The OIG opened 191 investigative cases and closed 202.
cause a portion of our work involved non-GSA                 We referred 44 cases (88 subjects) for criminal prosecu-
operations.                                                  tion, 19 cases (49 subjects) for civil litigation, and 5 cases
                                                             for further investigation by other Federal or state agen-
                                                             cies. Based on these and prior referrals, 27 cases
                                                             (47 subjects) were accepted for criminal prosecution and
A. OIG Accomplishments                                       3 cases (6 subjects) were accepted for civil litigation.
During the reporting period, the OIG issued 431 audit re-    Criminal cases originating from OIG referrals resulted in
ports, including 14 performed for the OIG by another         22 indictments / informa tions and 27 successful prosecu-
agency. The 431 reports contained financial recommen-        tions. OIG civil referrals resulted in 7 civil fraud com-
dations totaling $133,173,421, including $118,594,428        plaints and 2 settlements/judgments. These actions




16
resulted in determinations that $1,359,718 is owed the
Government. Through investigations, we also identified                     B. Summary Statistics
for recovery money /property worth $242,295.
We referred 87 cases to GSA management for administra-                      1. Audit Reports Issued
tive action. This total includes 15 case referrals
(58 subjects) for suspension/debarment and 72 case re-                     Table 1 summarizes OIG audit reports issued this period
ferrals (78 subjects) for other administrative actions.                    by GSA program area. Due to GSA's mission of procuring
Based on these and prior referrals, management debarred                    supplies and services for the Government, much of the
32 contractors, suspended 20 contractors, reprimanded                      $118,594A28 in recommendations that funds be put to
17 employees, suspended 1 employee, and terminated                         better use was applicable to funds other agencies would
2 employees.                                                               expend under GSA's Government-wide contracts. The
                                                                           table includes 14 audits, recommending that funds total-
The following subsection presents detailed information                     ing $1,071,658 be put to better use, that were performed
on these and other quantifiable accomplishments.                           for the GSA OIG by the Defense Contract Audit Agency.



                                                     Table 1.   Summary of OIG Audits
                                                                 Percentage                  Financial Recommendations
                      GSA                            Reports      of Total                To Put Funds        Questioned
                    Program                          Issued        Audits                 to Better Use         Costs
     PBS
     -Internal................................          68                                $  1,097,685           $ 1,092,659
     -Contract ...............................         120                                  33,752,163               211,117
                                                       188            43                  $ 34,849,848           $ 1,303,776
     FSS
     -Internal................................          25                                $        400           $
     -Contract ...............................          69                                  15,830,070             7,453,473
                                                        94            22                  $ 15,830,470           $ 7,453,473
     IRMS
     -Internal ............................... .         7                                $                      $
     -Contract .............................. .         92                                  67,914,110             5,821,744
                                                        99            23                  $ 67,914,110           $ 5,821,744
     Other GSA
     -Internal................................          37                                $                      $
     -Contract ........ .......................          5
                                                        42             10                 $                      $
     Non-GSA
     -Internal................................           8                                $                      $
     -Contract .............................. .
                                                         8             2                  $                      $
     TOTAL ..................................... .     431            100                 $118,594,428           $14,578,993*
     TOTAL COSTS
     RECOMMENDED ................. .                   $133,173,421
     * Includes $0 of unsupported costs.




                                                                                                                                 17
     2. Management Decisions on Audit                                                       not subject to the 6-month management decision re-
                                                                                            quirement. Thus, no reports were"act1Ji!ll.~ll:e:rdJlf: .a....
        Reports

                                                                                         -- statistic that reflects creditably on GSA's man
                                                                                            dehnon proe~
                                                             It should be noted that Table 2 does not include: the
                                                                                                                      .

     Table 2 summarizes the status of the universe of audits 8 reports issued to other agencies this period and reports
     requiring management decisions during this period, as excluded from the management decision process be-
                                                                                                                                                      t




     well as the status of those audits as of September 30,' cause they pertain to ongoing investigations. As of
     1989. Fifty-nine reports more than 6 months old were September 30, 1989, 62 reports (15 issued this period,
     awaiting management decisions as of September 30, 47 issued in prior periods) had been excluded from the
     1989; but all of them were preaward audits, which are management decision process for the latter reason.


                                              Table 2.            Management Decisions on OIG Audits
                                                                                                     Reports With                   Total
                                                                                      No. of           Financial                  Financial
                                                                                     Reports       Recommendations            Recommendations
          For which no management decision
            had been made as of 4/1/89
            -Less than 6 months old ............................ .                    196                   133                  $ 61,895,118
            -More than 6 months old ........................... .                      68                    64                    54,020,292
          Reports issued this period .............................. ..                408                   215                   123,621,848
./        TOTAL ............................................................... ..    672                   412                 $239,537,258

I ~For which a management decision was
             made during the reporting period
             -Issued prior periods ................................. ..               205                   143                 $ 78,004,325
             -Issued current period ............................... .                 232                    92                   31,816,197
          TOTAL ............................................................... ..    437                   235                 $109,820,522

          For which no management decision
            had been made as of 9/30/89
            -Less than 6 months old ........................... ..                    176                   123                 $ 91,805,651
            -More than 6 months old ........................... .                      59                    54                   37,911,085
          TOTAL ............................................................... ..    235                   177                 $129,716,736




     3. Management Decisions on Audit                                                       of the reports awaiting management decisions as of
                                                                                            April 1, 1989, six of the reports issued this period, eleven
        Reports With Financial                                                              of the reports on which management decisions were
        Recommendations                                                                     made this period, and two of the reports awaiting man-
                                                                                            agement decisions as of September 30, 1989 contained
     Tables 3 and 4 present the audits identified in Table 2 as                             recommendations that funds be put to better use as well
     containing financial recommendations by category                                       as questioned costs, and these reports are therefore in-
     (funds to be put to better use or questioned costs). Seven                             cluded in both Tables 3 and 4.




  18
                                Table 3. Manafjement Decisions on OIG Audits With
                                 Recommendations That Funds Be Put to Better Use
                                                                                                       No. of               Financial
                                                                                                      Reports           Recommendations
For which no management decision
  had been made as of 4/1/89
  -Less than 6 months old ........................................................ .                    113               $ 57,024,380
  -More than 6 months old ...................................................... ..                      61                 53,771,625
Reports issued this period .......................................................... ..                185                117,947,628

TOTAL .............................................................................................    359                $228,743,633

For which a management decision was
  made during the reporting period
  -Recommendations agreed to by
    management based on proposed
    -management action .......................................................... .                                       $ 70,306,120
    -legislative action .............................................................. ..
  -Recommendations not agreed to
    by management .................................................................... .                                    31,827,887

TOTAL .............................................................................................    203                $102,134,007

For which no management decision
  had been made as of 9/30/89
  -Less than 6 months old ........................................................ .                    105               $ 89,057,296
  -More than 6 months old ...................................................... ..                      51                 37,552,330

TOTAL .............................................................................................     156               $126,609,626




                                                Table 4. Management Decisions on
                                                 OIG Audits With Questioned Costs
                                                                                 No. of                   Questioned          Unsupported
                                                                                Reports                     Costs               Costs
For which no management decision
  had been made as of 4/1/89
  -Less than 6 months old .............................. ..                          23                   $ 4,870,738        $
  -More than 6 months old .............................. .                            7                       248,667
Reports issued this period ................................ ..                       36                     5,674,220

TOTAL ....................................................................           66                   $10,793,625        $

For which a management decision was
  made during the reporting period
  -Disallowed costs .......................................... .                                          $ 5,805,713        $
  -Costs not disallowed ................................... .                                               1,880,802
TOTAL ............................................................,...... .          43                   $ 7,686,515        $

For which no management decision
  had been made as of 9/30/89
  -Less than 6 months old .............................. ..                          19                   $ 2,748,355        $
  -More than 6 months old .............................. .                             4                      358,755
TOTAL ................................................................... .          23                   $ 3,107,110        $




                                                                                                                                            19
4. Management Decisions on Financial                                       Table 5 summarizes, by GSA program area, the
                                                                           235 reports identified in Tables 3 and 4, involving finan-
   Recommendations                                                         cial recommendations for which management decisons
                                                                           were made this period.




                       Table 5.          Management Decisions on Financial Recommendations
                                                               Funds to        Agreed                                Disallowed
                         GSA                                  Be Put to       With By            Questioned              By
                       Program                                Better Use     Management            Costs             Management
     PBS
     -Internal .......................................    $  1,771,270       $ 1,768,392         $3,514,600          $2,690,487
     -Contract .....................................        36,271,000        35,915,711            548,493             511,555
                                                          $ 38,042,270       $37,684,103         $4,063,093          $3,202,042
     FSS
     -Internal .......................................    $        400       $       400         $                   $
     -Contract .....................................        22,386,615        20,867,459          2,240,973           1,777,033
                                                          $ 22,387,015       $20,867,859         $2,240,973          $1,777,033
     IRMS
     -Internal .......................................    $                  $                   $                   $
     -Contract .....................................        41,704,722        13,970,699          1,382,449           1,052,540
                                                          $ 41,704,722       $13,970,699         $1,382,449          $1,052,540
     Other GSA
     -Internal .......................................    $                  $                   $                   $         9
     -Contract .....................................      $                  $                   $

     TOTAL ............................................   $102,134,007       $72,522,661         $7,686,515          $6,031,624
     TOTAL
     AGREED WITH
     BY MANAGEMENT ......................                 $ 78,554,285 *
     * Includes amounts that management decided to seek that exceeded recommended amounts,
       $2,216,541 in funds to be put to better use and $225,911 in disallowed costs.




5. Recoveries                                                              and Internal Controls Division, Office of Administra-
                                                                           tion, acts as staff to the Audit Followup Official in carry-
The OIG requested that GSA's Audit Resolution and In-                      ing out this function.
ternal Controls Division provide information on actual                     The OIG performs its own independent reviews of im-
monetary recoveries resulting from OIG audit reports.                      plementation actions on a test basis. This period, the
Between April 1, 1989 and September 30, 1989, Agency                       OrG performed 24 implementation reviews. In 21 of
records show that $2,352,800 was recovered and depos-                      these cases, management had successfully implemented
ited in the Treasury as the result of OIG audits.                          the recommendations. In the other 3 instances, recom-
                                                                           mendations were not being implemented in accordance
                                                                           with the action plans. One of these audits involved PBS
                                                                           programs; another audit involved an IRMS activity; and
6. Audit FoUowup                                                           the third audit involved an activity within the other GSA
                                                                           Services and Staff Offices.
GSA Order ADM 2030.2A places primary responsibility
for followup on the implementation of audit recommen-                      A report on each implementation review was distributed
dations, after management decisions have been reached,                     to the cognizant management official and to the Audit
with the Audit Followup Official. The Audit Resolution                     Resolution and Internal Controls Division.




20
7. Investigative Workload                                                                In addition to these cases, the Ole received and evalu-
                                                                                         ated 108 complaints 1allegations from sources other than
Table 6 presents detailed information on investigative                                   the Hotline that involved GSA employees and programs.
workload by case category. The Ole opened 191 cases                                      Based upon analyses of these allegations, OIG investiga-
and closed 202 casesj only 51 of these cases were admin-                                 tions were not warranted.
istratively closed without referral.



                                                          Table 6.               Investigative Workload
                                   Case                                            Cases Open             Cases                Cases                 Cases Open
                                  Category                                           3/31189             Opened                Closed                  9/30/89
      White Collar Crimes ...................................... ..                    280                     72                   85                  267
      Other Crimes Involving GSA Operations .... ..                                     45                     28                   24                   49
      Contractor Suspension/Debarment ............ ..                                   54                     15                   24                   45
      Employee Misconduct .................................... .                        27                     14                   14                   27
      Other ................................................................ .          51                     62                   55                      58
      TOTAL .............................................................. .           457                   191                  202                   446


Table 7 distributes the 191 new investigative cases                                      fell within the white collar crime category. Most of the
opened this period (Table 6) by case category and GSA                                    new cases (60 percent) involved PBS and FSS programs.
program area. Notably, 38 percent of the cases opened



                                       Table 7.            Distribution of Cases Opened This Period
                                   Case                                                                                                                Other
                                  Category                                             PBS                   FSS                 IRMS                  GSA
      White Collar Crimes ........................................                     27                     26                   10                       9
      Other Crimes Involving GSA Operations ......                                     17                     10                                          1
      Contractor Suspension/Debarment ..............                                    5                      6                     2                    2
      Employee Misconduct .....................................                         8                       3                    1                    2
      Other .................................................................          10                       3                    1                   48
      TOTAL ...............................................................            67                     48                   14                    62



8. Referrals                                                                             The OIG also referred 19 cases involving 49 subjects to
                                                                                         either the Civil Division of the Department of Justice or
The OIG makes three types of referrals to officials out-                                 a U.S. Attorney for civil fraud litigation consideration.
side GSA: criminal, civil, and investigative. During this                                The status of OIG civil referrals is as follows:
period, we referred 44 cases involving 88 subjects to the
Department of Justice or other authorities for criminal                                                                                               Cases      Subjects
prosecutive consideration. The status of OIG criminal                                        Pending Litigation Decision
referrals is as follows:                                                                       as of 4/1/88 .............................. ..          11          17
                                                                                             Referrals ......................................... .     19          49
                                                             Cases         Subjects          Declinations ................................. ..          8          28
  Pending Prosecutive Decision                                                               Accepted for Litigation ................ .                 3           6
    as of 4/1188 .............................. ..              20                75         Pending Litigation Decision
  Referrals ......................................... .         44                88           as of 9/30/89 ............................ ..           19          32
  Declinations .................................. .             25                51
  Accepted for Prosecution ............ .                       27                47
  Pending Prosecutive Decision                                                           The OIG made 5 referrals to other Federal or State agen-
    as of 9/30/89 ............................ ..               18                65     cies for further investigation or other action.




                                                                                                                                                                        21
 9. Administrative Referrals and Actions                                                      10. Contractor Suspensions and
 Frequently, OIG investigations disclose nonprosecutable
                                                                                                  Debarments
 wrongdoing on the part of GSA employees, contractors,
                                                                                             This period, the OIG referred 2 cases involving 12 sub-
 or private individuals doing business with the GSA. The
                                                                                             jects for suspension and 13 cases involving 46 subjects
 OIG refers these cases to GSA officials for administrative
                                                                                             for debarment. As a result of these and prior referrals,
 action.
                                                                                             management imposed 20 suspensions (includes 6 sus-
 During the period, we referred 72 cases involving 78 sub-                                   pensions resulting from debarment referralsl and 32 de-
 jects for administrative action. In addition, we referred                                   barments. Management disapproved 46 debarments.
 60 cases involving 74 subjects to GSA officials for infor-
                                                                                             The status of OIG suspension and debarment referrals is
 mational purposes only.
                                                                                             as follows:

                                                                                                                Suspensions                             Cases   Subjects
The status of OIG administrative referrals is as follows:
                                                                                                Pending as of 4/1/88 .................... .              10        26
                                                                Cases         Subjects          Referrals ......................................... .     2        12
     Pending Decision                                                                           Action Completed ........................ .               5        20
       as of 4/1/88 .............................. ..              36              48           Pending as of 9/30/89 ................. .                 7        18
     Referrals ......................................... .         72              78
     Action Completed ........................ .                   55              62                           Debarments                              Cases   Subjects
     Pending Decision
       as of 9/30/89 ............................ ..               53              64           Pending as of 4/1/88 .................... .              23       87
                                                                                                Referrals ......................................... .    13       46
Of the 72 cases referred for administrative action this pe-                                     Action Completed ........................ .              21       78
riod, 26 cases (26 subjects) involved GSA employees. As                                         Pending as of 9/30/89 ................. .                15       55
a result of these and prior referrals, management took
the following actions against GSA employees:
                                                                                              11. Summary of Referrals by GSA
     Reprimands ....................................               17                             Program Area
     Suspensions ....................................               1
     Demotions .................................... ..                                       Table 8 summarizes OIG referrals this period by type of
     Terminations ..................................                 2                       referral and GSA program area.



                                                 Table 8.            Summary of OIG Subject Referrals
                                           GSA                                                                                 Adminis-           Suspension!
                                         Program                                            Criminal           Civil            trative            Debarment
         PBS ............................................................................     40                28                  23                  30
         FSS ............................................................................     37                13                  15                  27
         IRMS ..........................................................................      10                 8                   5                   1
         Other GSA .................................................................           1                                    35

         TOTAL ........................................................................       88                49                  78                  58




22
12. Criminal and Civil Actions                                                           against 7 individuals, settlements being reached in 1 case
                                                                                         with 1 subject, and a judgment being entered in 1 case
                                                                                         involving 1 individual.
Cases accepted for criminal prosecution during this and
prior periods resulted in 22 indictments/informations                                    Table 9 summarizes individual criminal and civil actions
and 27 successful prosecutions. Civil referrals from this                                by GSA program area. In addition, there were unsuccess-
and prior periods resulted in 2 civil fraud complaints                                   ful criminal cases against 5 subjects.



                                         Table 9.             Summary of Criminal and Civil Actions
                                                                                         Indictments!                              Civil
                                       GSA                                              Informations!       Successful         Settlements!
                                     Program                                              Complaints       Prosecutions        Judgments
     PBS ............................................................................         8                   8
     FSS ............................................................................        20                  19                   2
     IRMS ..........................................................................          1
     Other GSA .............................................................. ..

     TOTAL ........................................................................          29                  27                   2



13. Monetary Results                                                                     The amounts do not necessarily reflect actual monetary
                                                                                         recoveries.
                                                                                         In addition, the OIG identified for recovery $242,295 in
Table 10 presents the amounts determined to be owed                                      money and/ or property during the course of its investi-
the Government as a result of criminal and civil actions.                                gations.



                                                  Table 10.             Criminal and Civil Recoveries
                                                                                          Criminal              Civil               Total

     Fines and Penalties .................................................                $108,596           $ 59,704           $   168,300
     Settlements/Judgments ......................................... .                                        521,000               521,000
     Restitutions .............................................................. .         670,418                                  670,418

     TOTAL ...................................................................... ..      $779,014           $580,704           $1,359,718


14. OIG Subpoenas
During the period, 26 OIG subpoenas were issued.




                                                                                                                                                 23
SECTION VII-REVIEW OF LEGISLATION AND
REGULATIONS

Section 4(a)(2) of the Inspector General Act of 1978 re-         the confusion caused by conduct of a board pro-
quires the OIG to review existing and proposed legisla-          ceeding in parallel with a fraud investigation or a
tion and regulations relating to GSA programs and                case involving claims of fraud.
operations. To fulfill this legislated responsibility, the
OIG maintains a clearance system that ensures OIG re-        •   S. 83, the Uranium Enrichment Act of 1989. We
                                                                 commented that the proposed legislation does
view of all proposed legislation, regulations, and intemal
                                                                 not provide for an Inspector General or equivalent
directives affecting any aspect of GSA operations.
                                                                 coverage for the United States Enrichment Cor-
                                                                 poration (USEe). We felt that, given the nature
                                                                 and size of the proposed Government corpora-
A. Legislation/Regulations                                       tion, it would be appropriate that such coverage
                                                                 be required. We noted that this could be done by
   Reviewed                                                      including the USEC as a designated Federal entity
                                                                 under the provisions of Section 8E(a)(2) of the In-
During this period, the OIG reviewed 366 legislative             spector General Act of 1978, as amended.
matters and 100 proposed regulations and directives.
                                                             •   H. R. 3145, the Consultant Disclosure and Fraud
                                                                 Prevention Act of 1989. We generally supported
B. Significant Comments                                          the substance of this bill, but took exception to
                                                                 the provision that establishes the Inspector Gen-
The OIG provided significant comments on the follow-             eral as the" collecting officer." We expressed con-
ing legislation, regulations, orders, and directives:            cern that this provision would be inconsistent
                                                                 with the Inspector General Act, which specifi-
  •   H. R. 1440, the Asset Forfeiture Act of 1988. We           cally prohibits transfer of programmatic func-
      supported this bill, which would provide the
                                                                 tions to the Inspector General. We feel that the
      Government with an additional remedy to pursue
                                                                 annual consultant reports are similar to financial
      for violations of the mail fraud (18 U.S.C. 1341)
                                                                 disclosure forms or to the certifications required
      and wire fraud (18 U.S.C. 1343) statutes, forfeit-         by the new procurement provisions of the Office
      ures of the fruits of the crime. We believe that
                                                                 of Federal Procurement Policy Act Amendments
      such a penalty would increase the deterrent effect         of 1988, which are submitted to agency program
      of those statutes. We noted that procurement               personnel. In our view, it would be more appro-
      fraud cases within GSA often involve violations            priate if the required reports were submitted to
      of those statutes.
                                                                 the agency head, who could then delegate respon-
  •   Draft Bill 57, the Federal Courts Improvement              sibility for their collection to an official in a staff
      Act Contract Disputes Act Amendments of 1989.              or operating capacity within the agency.
      We generally supported this draft bill since it re-
      solves some legal issues that have arisen involv-      •   COM P 4251.1, Comptroller Handbook, Ac-
                                                                 counting Policy and Procedures Manual. We
      ing the interplay between fraud cases and
                                                                 noted that changes involving the transferring and
      Contract Disputes Act cases. We strongly sup-
                                                                 writing off of automated data processing equip-
      ported the changes in Title II, Section 204 of the
      bill, noting that these changes would signifi-             ment appear to be inconsistent with several other
                                                                 agency regulations. We felt that these changes
      cantly clarify and strengthen the authority of the
                                                                 could weaken the existing leased ADP equipment
      Department of Justice to determine whether a
                                                                 internal controls.
      matter involves fraud, to remove such matters
      from the jurisdiction of agency boards, and to ob-     •   FSS P 4025.5, Donation of Surplus Personal Prop-
      tain a stay of proceedings during the investigation        erty. We agreed that items with an acquisition
      of possible fraudulent claims. We further noted            cost of $5,000 and over should be given special at-
      that the proposed amendments would thereby                 tention. We suggested that this include any item
      protect against improper administrative resolu-            that has a current value of $5,000 and over, in-
      tions to cases involving fraud, and would reduce           cluding its value as scrap.




24
SECTION VIII-OTHER OIG ACTIVITIES

In addition to detecting problems in GSA operations, the      involving annual rentals in excess of $200,000. The re-
OIG is responsible for initiating actions to prevent fraud,   views, although advisory in nature, limit opportunities
waste, and abuse and to promote economy and effi-             for fraud, waste, and abuse in the leasing area.
ciency. This section details: the OIG program responding
to these legislated prevention responsibilities, and OIG      The program achieved the following results during the
involvement in projects sponsored by the President's          reporting period:
Council on Integrity and Efficiency (PCIE).
                                                                 Lease proposals submitted for review .................            97
                                                                 Lease proposals reviewed ......................................   34
                                                                 Lease proposals with deficiencies ........................        22
A. OIG Prevention Program                                        Lease proposals with no deficiencies ..................           12
The OIG prevention program is comprised of four ele-          Major deficiencies identified through OIG preaward ad-
ments that simultaneously focus on minimizing oppor-          visory reviews related to: proposed annual rental exceed-
tunities for fraud, waste, and abuse and promoting            ing the fair annual rental amount; lease terms not
awareness among GSA employees. This four-pronged ap-          containing requirement for removal of asbestos from
proach consists of:                                           building; low offeror not considered responsive to qual-
                                                              ity location requirements; questionable financial re-
  •   Defining areas vulnerable to fraud, waste, and          sponsibility of proposed lessor; and unequal application
      abuse and assessing the degree of vulnerability.        of evaluation factors. Other deficiencies included:
  •   Anticipating potential problem areas and per-           incomplete lease files; incorrect occupancy rate applied
      forming front-end reviews to help ensure that           to maintenance costs; no fire and safety review; no
      programs will operate within applicable laws,           overtime rate established for heating season; no indepen-
      policies, and procedures.                               dent estimates; and non verification of the total square
                                                              footage.
  •   Educating GSA employees on the manifestations
      of fraud and the mechanisms for reporting suspi-
      cions or allegations to the OIG.
                                                              3. Education
  •   Communicating the OIG presence and establish-
      ing mechanisms that promote a dialogue between          Integrity Awareness Briefings comprise the OIG's pri-
      GSA employees and the OIG.                              mary vehicle for educating employees on the manifesta-
                                                              tions of fraud and abuse. These briefings explain the
1. Definition                                                 statutory mission of the OIG and the functions executed
                                                              by each of our component offices. In addition, through
The OIG considers the identification of vulnerable areas      case studies and slides, the briefings expose GSA em-
to be a major prerequisite to the prevention of fraud,        ployees to actual instances of white collar crime in GSA
waste, and abuse.The OIG's primary vehicles for identi-       and other Federal agencies.
fying vulnerable areas and prioritizing planned workload      The OIG conducts two types of Integrity Awareness
assignments are the audit and investigative planning          briefings: general awareness briefings that are geared par-
processes. These processes note the results of prior re-      ticularly to new GSA employees, and program-specific
views and the last time a review occurred in an area, so-     briefings that are targeted to employees working in spe-
licit GSA management's opinions and comments, and             cific GSA programs. Since the inception of this program
consider current Government and agency issues when            in 1981,13,785 GSA employees have attended Integrity
determining those areas in which the OIG will expend          Awareness Briefings. This total includes the 783 Central
resources during the upcoming year.                           Office and regional employees attending 19 briefings this
                                                              period.
2. Anticipation
OIG anticipation activities this period focused on pre-       4. Communication
award contract audits (Sections II through V), review of
proposed legislation and regulations (Section VII), and       A free flow of information between GSA employees and
continued preaward coverage of GSA's leasing program.         the OIG is a vital prevention and detection element. Rec-
These activities stem from the belief that many of to-        ognizing this fact, the OIG issues brochures On the
morrow's problems can be avoided through decisive             Hotline and its Report to the Congress. We also distrib-
action today.                                                 ute an OIG informational brochure to communicate the
                                                              OIG's mission and responsibilities to GSA managers and
The OIG's program for reviewing leases prior to award         employees, and to serve as a recruitment tool. During
provides front-end assurance that GSA is adhering to reg-     the reporting period, we received 64 Hotline calls and
ulations and procedures before awarding selected leases       letters. Of these, 60 complaints warranted further

                                                                                                                                        25
action. We also received 3 referrals from GAO and 7 re-        3. Computer Systems Integrity Project
ferrals from other agencies; all of these referrals required
further action. The remaining 4 Hotline complaints re-         The GSA OIG is one of 11 agencies participating in this
quired no further action and were closed.                      evaluation of the automated systems application con-
                                                               trols and data reliability of agencies' contract tracking
                                                               systems. The objective of the review is to assess the in-
B.. Projects Sponsored by the                                  tegrity of data reported to the Federal Procurement Data
                                                               System.
      peIE                                                     This effort will culminate in individual agency reports,
The OIG continued to participate in interagency projects       scheduled for issuance in November 1989, followed by a
sponsored by the PCIE as well as having OIG staff mem-         consolidated report, due by November 30, 1989.
bers provide ongoing support to several PCIE commit-
tees. Specific involvement this period is delineated by
project or activity in the paragraphs that follow.             4. Governmentwide Review of
                                                                  Accounting Systems
1. Review of Relocation Services                               The GSA OIG participated in this peIE project aimed at
   Contracts                                                   assessing whether funds for improved Governmentwide
                                                               accounting systems are well spent, and whether ade-
The GSA OIG is the lead agency on this PCIE review             quate audit trails and internal controls exist. A consoli-
aimed at: evaluating the utilization and administration        dated report was issued by the Department of
of relocation services contracts throughout the Govern-        Transportation OIG on September 29, 1989.
ment; and identifying efficient and effective ways to pro-
vide needed services.
Participating agencies completed fieldwork on the              5. Review of the Characteristics of
project in August 1989. The fieldwork included reviews            Closed Investigative Cases
of approximately 200 relocations with an estimated cost
of over $6 million. Individual reports will be submitted       The GSA OIG participated in this PCIE review aimed at
to each agency during the first quarter of Fiscal Year         identifying the major characteristics of the investigative
1990, followed by a consolidated report.                       work currently being performed by the OIGs. A consoli-
                                                               dated report was issued in July 1989.
2. Review of Government Owned and
   Leased Space                                                6. Other pcrn Activities
The GSA OIG is the lead agency on this Government-             The GSA OIG continued to produce "Frontline," the
wide peIE review evaluating the cost effectiveness of de-      peIE bimonthly newsletter. Three issues of this news-
cisions for obtaining Government owned and leased              letter, which highlights issues and activities of interest
space. The objectives are to determine whether: (1) agen-      to the entire peIE community, were published during
cies' space acquisition decisions ensure cost effective-       this reporting period.
ness and consider all available options, such as Federal
construction, leasing, purchasing, and utilization of va-      The GSA Inspector General, as chairman of the peIE
cant space; (2) agencies are complying with the provi-         Training Subcommittee, coordinated the training needs
sions of the McKinney Act; and (3) the Federal Building        of professional and support personnel within the PCIE.
Fund is being effectively used.                                This period, the Subcommittee developed a new pro-
                                                               gram of Executive and Management Development Fo-
A questionnaire has been developed to identify the uni-        rums. Three of these forums were conducted this period.
verse of space to be reviewed. This questionnaire has          Other significant activities of the Subcommittee in-
been distributed to all PCIE members. The project is           cluded a briefing on semiannual report preparation and a
scheduled for completion by the end of FY 1990.                seminar on Hotline issues.




26
APPENDICES
APPENDIX I-AUDIT REPORT REGISTER

                                                                                            Financial
                                                                                       Recommendations
                                                                                    Funds to     Questioned
Date of    Assignment                                                              Be Put To (Unsupported)
Report     Number                                Title                             Better Use       Costs
           (Note: Due to the pre-decisional nature of some audits, the financial recommendations
                  pertaining to these reports are not listed in this Appendix.)



PBS        Internal Audits
04/03/89   A80634      Review of Utilities Provided by Commercial Facilities        145500         143455
                       Management Contract No. GS05P87GAC0005
04/03/89   A80678      Review of the Award and Administration of Guard Con-                        64114
                       tracts in Region 4
04/06/89   A80934      Survey of the Planning and Establishment of Child Care
                       Centers in Region 6
04/06/89   A80990      Review of Additional Space Being Acquired Under Lease                       110000
                       No. GS-05B-14768
04/13/89   A80494     Review of New Lease Awards in a Specific Geographical
                      Area Within Region 2
04/24/89   A90384     Review of Government Estimate on Change Order                  69225
                      for Smoke Evacuation System, Federal Building, Miami,
                      Florida
04/24/89   A90490      Review of Haney-Claxton Developers, Contract No.
                       GS-04P-14592
04/28/89   A90381      Preaward Lease Review: Third Avenue Office Building,
                       Ft. Lauderdale, Florida, Lease No. GS-04B-29017
05/01/89   A90215      Review of Leasing Action: 1516 South Boston, Tulsa, Okla-
                       homa, Lease No. GS-07B-13283
05/02/89   A90547      Preaward Lease Review: 841 Chestnut Building, 841
                       Chestnut Street, Philadelphia, PA, Lease No. GS-038-
                       99002
05/03/89   A90518     Pre award Lease Review: 1221 Broadway, Oakland, Califor-
                      nia, Lease No. GS-09B-88513
05/05/89   A80966      Review of Common Border Facility, Project No.
                       NWA68900, Danville, Washington
05/09/89   A90117     Review of Long Island Buildings Management Field Office
05/12/89   A90496      Preaward Lease Review: 646 Minnesota Avenue, Kansas
                       City, Kansas, Lease No. GS-06P-98774
05/16/89   A90361     Review of Lease Compliance: 1414 6th Avenue, New York,
                      NY, Lease No. GS-02B-22112
05/17/89   A90082     Review of Administration of Lease No. GS-09B-85185, El        707000         768470
                      Segundo, California, Region 9
05/19/89   A90583      Preaward Lease Review: 9001 State Line, Kansas City, Mis-
                       souri, Lease No. GS-06P-98776

28
OS/25/89   A90559   Pre award Lease Review: 500 Spaulding Turnpike, Ports-      175960
                    mouth, NH, Lease No. GS-01B(PELJ-03652 "NEG"
05/30/89   A90563   Preaward Lease Review: World Trade Center, Los Angeles,
                    California, Lease No. GS-09B-07536
05/30/89   A90627   Preaward Lease Review: Naval Avionics Center, Indianapo-
                    lis, Indiana, Lease No. GS-05B-14915
05/31/89   A90593   Preaward Lease Review: Plaza 500, 6295 Edsall Road, Alex-
                    andria, Virginia, Lease No. GS-I1B-90182
05/31/89   A90614   Preaward Lease Review: Curtis Center, Independence
                    Square West, Philadelphia, Pennsylvania, Lease No.
                    GS-03B-99044
06/01/89   A80966   Review of Carpet Tile Installation Project No. RWA58355,
                    Henry M. Jackson Federal Building, Seattle, Washington
06/05/89   A90601   Pre award Lease Review: Osuna and 125 NW, Albuquerque,
                    New Mexico, Lease No. GS-07B-13323
06/15/89   A90603   Preaward Lease Review: Somerset Park Building, Raleigh,
                    North Carolina, Lease No. GS-04B-29U5
06/16/89   A90635   Pre award Lease Review: IRS, Chamblee, Georgia, Lease
                    No. GS-04B-29121
06/19/89   A90505   Review of Salt Lake City Field Office
06/26/89   A80905   Review of Buildings Management Field Office, Milwau-
                    kee, Wisconsin
06/26/89   A80947   Review of the West Heating Plant's Buildings Management
                    Field Office, National Capital Region
06/28/89   A80460   Review of Outgrants for Commercial Antenna Space
07/06/89   A90589   Postaward Lease Review: 6 Saint Paul Centre, 6 Saint Paul
                    Street, Baltimore, MD, Lease No. GS-03B-99029
07/06/89   A90710   Preaward Lease Review: Five Radnor Corporate Center,
                    Matsonford Road, Radnor, PA, Lease No. GS-03B-99049
07/07/89   A90269   Review of the Camden Buildings Management Field Office
                    Operations
07/10/89   A90726   Preaward Lease Review: General Accounting Office, Chi-
                    cago, Illinois, Lease No. GS-05B-14339
07/13/89   A80743   Review of GSA's Asbestos Control Program, Region 2
07/14/89   A90680   Preaward Lease Review: 211 Main Street, San Francisco,
                    California, Lease No. GS-09B-07298
07/19/89   A80966   Review of PCB Transformer Replacement and Installation
                    of Wet Pipe Sprinkler System, Project No. RCA21002,
                    Laguna Niguel, CA
07/26/89   A80880   Review of the Fire Sprinkler System at the Martin Luther
                    King, Jr., Federal Building, Atlanta, Georgia
07/27/89   A90658   Preaward Lease Review: One Skyline Tower, 5107 Lees-
                    burg Pike, Falls Church, Virginia, Lease No. GS-llB-90197
07/28/89   A90211   Review of Time and Attendance Practices of the Law En-
                    forcement Branch, Public Buildings Service
07/28/89   A90683   Preaward Lease Review: Presidential Building, 6525
                    Belcrest Road, Hyattsville, Maryland, Lease No. GS-llB-
                    90186
07/31/89   A90708   Preaward Lease Review: Skyline 5 Building, 5111 Leesburg
                    Pike, Falls Church, Virginia, Lease No. GS-11B-90206

                                                                                         29
08/01/89   A80799   Review of Controls Over Lease Payments
08/04/89   A90773   Preaward Lease Review: IRS Facility, Ogden, Utah, Lease
                    No. GS-08P-12923
08/08/89   A90588   Postaward Lease Review: Equitable Bank Center Tower II,
                    100 South Charles Street, Baltimore, MD, Lease No.
                    GS-03B-99008
08/11/89   A80995   Review of Postaward Lease Administration and Manage-
                    ment of Lease No. GS-05B-14591, 1700 S. Wolf Road, Des
                    Plaines, Illinois
08/11/89   A90418   Review of the Mechanical Maintenance Contract: West
                    Palm Beach, Florida, Region 4
08/11/89   A90739   Preaward Lease Review: 1707 H Street, NW, Washington,
                    DC, Lease No. GS-llB-90198
08/16/89   A90369   Review of Lease Overpayments, Lease No. GS-08B-10857,
                    Earth Lab, Arvada, Colorado
08/24/89   A90738   Preaward Lease Review: The Berkley Building, 1701 North
                    Fort Myer Drive, Arlington, Virginia 22209, Lease No.
                    GS-11B-90203
08/28/89   A90798   Postaward Lease Review: The Indiana Building, 633 Indi-
                    ana Avenue, NW, Washington, DC, Lease No. GS-11B-
                    20069
08/31/89   A90557   Review of Structural Deficiencies in the Floor Slabs of the
                    Silver Spring Metro Center Building
08/31/89   A90755   Preaward Lease Review: Virginia Square Plaza, 3701 North
                    Fairfax Drive, Arlington, VA, Lease No. GS-11B-90211
08/31/89   A90832   Preaward Lease Review: The Yorktown Building, 8001
                    Forbes Avenue, Springfield, VA, Lease No. GS-llB-90214
08/31/89   A90854   Pre award Lease Review: Dorsey Business Center, 6845
                    Deerpath Road, Baltimore, MD, Lease No. GS-03B-99086
09/01/89   A90820   Pre award Lease Review: 200 Montague Street, Brooklyn,
                    New York, Lease No. GS-02B-22521
09/08/89   A90591   Preaward Lease Review: MEPS Building, Jackson, Missis-
                    sippi, Lease No. GS-04B-29037
09/12/89   A90562   Review of Polychlorinated Biphenyls (PCB) Disposal Pro-
                    cedures, Region 9
09/14/89   A90853   Preaward Lease Review: Southpark Building G, Austin,
                    Texas, Lease No. GS-07B-13174
09/19/89   A90909   Preaward Lease Review: Building S-5, 7142-60 Ambassador
                    Road, Woodlawn, MD, Lease No. GS-03B-99064
09/21/89   A90533   Postaward Lease Review: Executive Building, Hollywood,        6620
                    FL, Lease No. GS-04B-28023
09/21/89   A90766   Interim Report on the Purchase of the Ashford Oaks Build-
                    ing, San Antonio, TX
09/22/89   A90896   Preaward Lease Review: Lake Plaza North Office Building,
                    Lakewood, CO, Lease No. GS-08P-12920
09/26/89   A90908   Pre award Lease Review: The Burnham Building, 3101
                    Pennsy Drive, Landover, MD, Lease No. GS-11B-90225
09/27/89   A90833   Pre award Lease Review: Newark International plaza Hem-
                    isphere Center, Newark, NT, Lease No. GS-02B-18628
09/27/89   A90902   Pre award Lease Review: Albrook Center, Denver, CO,
                    Lease No. GS-08P-12937

30
09/28/89   A90848   Pre award Lease Review: Building C, Mercure Industrial
                    Center, Mercure Circle, Loudoun County, VA, Lease No.
                    GS-llB-90217
09/29/89   A90514   Postaward Lease Review: Phoenix Building, Miami, FL,
                    Lease No. GS-04B-28045




PBS        Contract Audits
04/03/89   A80896   Postaward Audit of Lease Escalation: First Interstate Plaza   275044   46436
                    Building, Tacoma, Washington, Lease No. GS-lOB-04506
04/05/89   A90417   Preaward Audit of Cleaning Services Contract: Wyoming
                    Building Maintenance, Solicitation No. GS-07P-89-JWC-
                    0027
04/07/89   A90048   Preaward Audit of Claim for Increased Costs: Bechtel Con-
                    structors Corporation, Contract No. GS-08B-93135
04/07/89   A90048   Preaward Audit of Claim for Increased Costs: Bechtel Con-
                    structors Corporation, Change Order Numbers 82 and 92,
                    Contract No. GS-08B-93135
04/07/89   A90048   Pre award Audit of Claim for Increased Costs: Common-
                    wealth Electric Company, Subcontractor to Bechtel Con-
                    structors Corporation, Contract No. GS-08B-93135
04/07/89   A90314   Preaward Audit of Architect and Engineering Services Con-
                    tract: Brubaker/Brandt, Inc., Solicitation No. GS05P-
                    88GBD0183
04/07/89   A90401   Audit of June 1988 Through February 1989 Invoices Sub-
                    mitted by Real Estate Management Services, Inc., Con-
                    tract No. GS-04P-88-EWC-0103
04/10/89   A90198   Pre award Audit of Architect and Engineering Services Con-
                    tract: Carlson Associates, Inc., Contract No. GS01P-
                    89BWCOOlO
04/13/89   A90188   Preaward Audit of Supplemental Architect and Engineer-
                    ing Term Contract: George Evans Associates, Inc., Consul-
                    tant to Browne, Worrall & Johnson, Inc., Solicitation No.
                    GS-03P-88-DXD-0086
04/13/89   A90416   Pre award Audit of Cost or Pricing Data: Kammerer Con-
                    struction, Inc., Solicitation No. GS-09P-88-KTD-0156
04/14/89   A90295   Pre award Audit of Architect and Engineering Services Con-
                    tract: Sapack, Ames & Whitaker, Architects, Solicitation
                    No. GS-02P88CUC0136(N)
04/19/89   A90268   Pre award Audit of Supplemental Architect and Engineer-
                    ing Term Contract: AASTECH, Inc., Solicitation No. GS-
                    03P-88-DXD-011O
04/20/89   A90057   Audit of Claim for Increased Costs: Terminal Construction
                    Corporation, Contract No. GS-02P-23256
04/25/89   A90309   Preaward Audit of Change Order Proposal: J.S. Alberici
                    Construction Company, Inc., Contract No. GS06P-
                    88GYCOO09
04/27/89   A90154   Preaward Audit of Change Order Proposal: Landis and Gyr
                    Powers, Inc., (Formerly MCC Powers, Inc.) Second-tier
                    Subcontractor to Terminal Construction Corporation,
                    Contract No. GS-02P-23256

                                                                                                   31
04/28/89   A90431   Pre award Audit of Pricing Proposal: JK Guardian Security
                    Services, Inc., Solicitation No. GS-06P-89-GXC-0008
04/28/89   A90516   Preaward Audit of Pricing Proposal: Pinchin-Harris and As-
                    sociates, Ltd., Project No. IAK11280
05/01/89   A90400   Preaward Audit of Overhead Expense Rates for Construc-
                    tion Change Orders: Stein & Company Federal Center,
                    Inc., Lease No. GS-05B-14850
05/01/89   A90453   Preaward Audit of Architect and Engineering Services
                    Contract: McKee, McKenzie & Deville, Inc., Consulting
                    Engineers
05/02/89   A90455   Pre award Audit of Architect and Engineering Services
                    Contract: Levy-Kramer & Associates Inc., Consulting
                    Engineers
05/04/89   A90111   Preaward Audit of Architect and Engineering Services Con-
                    tract: H.E Lenz Company, Solicitation No. RPA-76760
05/05/89   A90243   Preaward Audit of Change Order Proposal: J.S. Alberici
                    Construction Company, Inc., Contract No. GS06P-
                    88GYC0009
05/05/89   A90476   Preaward Audit of Supplemental Architect and Engineer-
                    ing Term Contract: Celli-Flynn and Associates, Solicita-
                    tion No. GS-03P-88-DXD-002S
05/08/89   A90214   Pre award Audit of Change Order Proposal: Terminal Con-
                    struction Corporation, Contract No. GS-02P-23256,
                    RFPNo.70
05/09/89   A90080   Preaward Audit of Architect and Engineering Services Con-
                    tract: Joseph B. Callaghan, Incorporated, Solicitation No.
                    RPA-76760
05/09/89   A90452   Preaward Audit of Architect and Engineering Services Con-
                    tract: Newman and Grace Architects, Inc.; Raymond Post
                    AlA Architects; Holly and Smith Architects Inc.; and
                    E. Eean McNaughton Architects, a Joint Venture, Contract
                    No. GS-07P-89-HUC-0019
05/09/89   A90454   Pre award Audit of Architect and Engineering Services
                    Contract: Leblanc & Assaf and Associates, Inc., Consult-
                    ing Engineers
05/09/89   A90512   Preaward Audit of Architect and Engineering Services Con-
                    tract: Kaselaan & D' Angelo Associates, Inc., Contract No.
                    GS01P89BWCOOlO
05/12/89   A90443   Accounting System Survey: Old St. Louis Post Office Asso-
                    ciates, Lease No. GS-06B-28111
05/16/89   A90297   Pre award Audit of Value Change Proposal: J.S. Alberici
                    Construction Company, Inc., Contract No. GS06P-
                    88GYC0009
05/18/89   A90310   Preaward Audit of Claim for Increased Costs: Singleton
                    Electric Company, Inc., Contract No. GS-llB-58297
                    "NEG"
05/18/89   A90456   Pre award Audit of Architect and Engineering Services Con-
                    tract: Boarman & Associates, Inc., Solicitation No.
                    GS05P88GBD0186
05/18/89   A90511   Preaward Audit of Architect and Engineering Services Con-
                    tract: Eberle M. Smith Associates, Inc., Solicitation No.
                    GS05P88GBDO 193
OS/22/89   A90410   Pre award Audit of Change Order Proposal: Day & Zimmer-
                    mann, Inc., Contract No. GS06P86GYC0052

32
OS/22189   A90469    Preaward Audit of Architect and Engineering Services Con-
                     tract: Kemnitzer, Reid & Haffler, Architects, Contract No.
                     GS11P89EGD0105
OS/23/89   A90237    Pre award Audit of Architect and Engineering Services Con-
                     tract: Ages Corporation, Solicitation No. RPA-76760
OS/26/89   A90485    Preaward Audit of Architect and Engineering Services Con-
                     tract: Wolf Wineman Engineers, Inc., Solicitation No.
                     GS05P88GBD0052
05/31189   A80659    Preaward Audit of Lease Alteration Proposal: 7799 Lees-
                     burg Pike Joint Venture, Lease No. GS-llB-70136 "NEG"
05/31/89   A90383    Postaward Audit of Mississippi Valley Food Service Corpo-
                     ration's Vending Operations, Contract No. GS-04B-50100
05/31/89   A90439    Pre award Audit of Cost or Pricing Data: MVM, Inc., Con-
                     tract No. GS-llP89MJC0016 S(a)
05/31/89   A90440    Preaward Audit of Cost or Pricing Data: MVM, Inc., Con-
                     tract No. GS-llP89MJC0019 S(a)
05/31189   A90464    Preaward Audit of Architect and Engineering Services Con-
                     tract: NBBJ Group, Project No. IWAl1310
05/31/89   A90468    Preaward Audit of Cost or Pricing Data: Colorado Security
                     Agency, Inc., Contract No. GS-llP-89-MJC-0017 S(a)
05/31189   A90486    Pre award Audit of Cost or Pricing Data: Fajardo Private De-
                     tectives and Security Guards, Inc., Contract No.
                     GS02P89CTC0041
06/09/89   A90442    Preaward Audit of Supplemental Architect and Engineer-
                     ing Services Contract: Paul K.Y. Chen, Architect, Solicita-
                     tion No. GS-02P-88-CUD-0l39(N)
06/09/89   A90531    Preaward Audit of Overhead Expense Rates for Construc-
                     tion Change Orders: Fujikawa Johnson and Associates,
                     Inc., Subcontractor to Stein & Company Federal Center,
                     Inc., Lease No. GS-05B-14850
06/09/89   A905 76   Preaward Audit of Architect and Engineering Services Con-
                     tract: The OdIe Group, Inc., Solicitation No. GS-05P-88-
                     GB-C-0l21
06/12189   A90406    Audit of Termination Proposal: Hutchinson Company,
                     Contract No. GS-02P-87CUC0062
06/12189   A90558    Preaward Audit of Architect and Engineering Services Con-
                     tract: Howard Needles Tammen & BergendoH, Solicitation
                     No. ZM091210
06/13/89   A90466    Preaward Audit of Lease Escalation Proposal: The Pilchers
                     Group, Lease No. GS-09B-75762
06/13/89   A90523    Preaward Audit of Lease Escalation Proposal: The Pilchers
                     Group, Lease No. GS-09B-75762
06/16/89   A90483    Audit of Termination Proposal: Young Enterprises, Inc.,
                     Contract No. GS-07P-86-HUC-0027
06/19/89   A90409    Pre award Audit of Cost or Pricing Data: Wilson Palmetto
                     Partnership, Contractor Lease No. GS-04B-28085, Tow-
                     veyor Computer Controls Change Order, Palmetto Distri-
                     bution Facility
06/21189   A90527    Pre award Audit of Lease Escalation Proposal: C & C Invest-
                     ments, Lease No. GS-09B-06600
06/21/89   A90528    Preaward Audit of Lease Escalation Proposal: C & C Invest-
                     ments, Lease No. GS-09B-82252

                                                                                    33
06/23/89   A90332   Preaward Audit of Supplemental Architect and Engineer-
                    ing Services Contract: Mariano D. Molina, P.c., Solicita-
                    tion No. GS-02P-88-CUD-0140(NEG)
06/26/89   A90289   Preaward Audit of Cost or Pricing Data: Foulger-Pratt Con-
                    struction, Inc., Lease No. GS-llB-90153
06/26/89   A90346   Pre award Audit of Change Order Proposal: Premium Time,
                    Otis Elevator Company, Subcontractor to Terminal Con-
                    struction Corp., Contract No. GS-02P-23256
06/26/89   A90390   Audit of Claim for Increased Costs: Omega Drywall, Ltd.,
                    Subcontractor to Centex Construction Co., Inc., Contract
                    No. GS-llB-19066
06/26/89   A90624   Pre award Audit of Cost or Pricing Data: ICS Service Orga-
                    nization, Inc., Contract No. GS-02P88CTC0027
06/27/89   A90493   Audit of Claim for Increased Costs: Superior Iron Works,
                    Inc., Subcontractor to Centex Construction Co., Inc., Con-
                    tract No. GS-llB-19066
06/28/89   A90475   Preaward Audit of Supplemental Architect and Engineer-
                    ing Term Contract: Kingsland, Scott, Bauer, Havekotte,
                    Architects, Solicitation No. GS-03P-88-DXD-0119
06/30/89   A90555   Pre award Audit of Architect and Engineering Services Con-
                    tract: Peck, Peck & Associates, Inc., Contract No.
                    GS11P89EGD0129
07/03/89   A90634   Preaward Audit of Architect and Engineering Services Con-
                    tract: John Victor Frega Associates, Ltd., Solicitation No.
                    GS05P88GBD0199
07/05/89   A90577   Preaward Audit of Architect and Engineering Services Con-
                    tract: Rotz Engineering, Inc., Consultant to the OdIe
                    Group, Inc., Solicitation No. GS-05P-88-G8-C-0121
07/06/89   A90271   Preaward Audit of Claim for Increased Costs: U S West In-
                    formation Systems, Inc., Contract No. GS-lOP-51361
07/06/89   A90572   Audit of Termination Proposal: Ewing-Tex Company, Con-
                    tract No. GS-07P-88-HUC-0076
07/12/89   A90389   Preaward Audit of Claim for Increased Cost: Aderhold
                    Construction Company, Inc., Contract No. GS-04P-86-EX-
                    C0075
07/13/89   A90669   Pre award Audit of Architect and Engineering Services Con-
                    tract: Dolio & Metz, Ltd., Consultant to John Victor Frega
                    Associates, Ltd., Solicitation No. GS05P88GBD0199
07/19/89   A90408   Pre award Audit of Cost or Pricing Data: Wilson Palmetto
                    Partnership, Contract No. GS-04B-28085
07/27/89   A90348   Preaward Audit of Change Order Proposal: Premium Time,
                    Benjamin Electrical Engineering Works, Inc., Subcontrac-
                    tor to Terminal Construction Corp., Contract No. GS-02P-
                    23256
07/27/89   A90502   Preaward Audit of Lease Escalation Proposal: Navelex
                    Building Associates, Lease No. GS-04B-15479
07/28/89   A90470   Preaward Audit of Cost or Pricing Data: Eagle Maintenance
                    Services, Inc., Contract No. GS-llP-89-MJC-0025
07/28/89   A90553   Preaward Audit of Overhead Expense and Fringe Benefits
                    Billing Rates for Construction Change Orders: Morse Die-
                    sel, Inc., Subcontractor to Stein and Company Federal
                    Center, Inc., Lease No. GS-05B-14850



34
07/31/89   A90494   Pre award Audit of Lease Alteration Proposal: Control Data
                    Corporation, Lease No. GS-IIB-80222 "NEG"
08/02/89   A90543   Pre award Audit of Cost or Pricing Data: Western Extermi-
                    nating Co., Inc., Solicitation No. GS-llP-88-MJC-01l4
08/02/89   A90674   Pre award Audit of Change Order Proposal: CRS Sirrine,
                    Inc., Contract No. GS06P86GYC0053
08/09/89   A90687   Preaward Audit of Cost or Pricing Data: J.S. Alberici Con-
                    struction Company, Inc., Contract No. GS06P88GYCOO09
08/10/89   A90541   Preaward Audit of Change Order Proposal: Kelley Control
                    Systems, Inc., Contract No. GS05P86GBC0112
08/11/89   A90663   PreawardAudit of Architect and Engineering Services Con-
                    tract: Kallen and Lemelson, Consulting Engineers, Con-
                    sultant to the Grad Partnership (Overhead Evaluation)
                    Contract No. GS-02P-86CUC00l6(NEG)
08/11/89   A90684   Preaward Audit of 8(a) Pricing Proposal: The Cleaning
                    Network/Martec Systems, Solicitation No. GS-07P-89-
                    JWC-0027
08/11/89   A90690   Pre award Audit of Architect and Engineering Services Con-
                    tract: Van Dijk, Johnson & Partners, Solicitation No.
                    GS05P88GBD0192
08/14/89   A90345   Preaward Audit of Change Order Proposal: Premium Time,
                    Aires Electrical Contracting Corp., Subcontractor to Ter-
                    minal Construction Corp., Contract No. GS-02P-23256
08/14/89   A90596   Preaward Audit of 8(a) Construction Contract: Fred Burgos
                    Construction Company, Inc., Contract Number: GS-04P-
                    89-EX-C1019(8)a
08/17/89   A90615   Preaward Audit of Delay Claim: Western Environmental
                    Services, Inc., Contract No. GS-08B-85-078
08/25/89   A90693   Preaward Audit of Lease Escalation Proposal: Lakewood
                    Office Plaza, Lease No. GS-08B-09899
08/25/89   A90758   Preaward Audit of Supplemental Construction Quality
                    Management Services: Cygna Project Management, Solici-
                    tation No. GS-05P-87-GBD-0097
08/29/89   A90537   Preaward Audit of Lease Escalation Proposal: Southwest
                    Joint Venture, Lease No. GS-03B-60172
08/30/89   A90407   Pre award Audit of Cost or Pricing Data: Wilson Palmetto
                    Partnership, Contract No. GS-04B-28085
08/30/89   A90461   Pre award Audit of Claim for Increased Costs: Pierce Asso-
                    ciates Inc., Subcontractor to Centex Construction Com-
                    pany, Inc., Contract No. GS-11B-19066
08/30/89   A90495   Preaward Audit of Claim for Increased Costs: Grunley-
                    Walsh Construction Co., Inc., Contract No. GS-11B-38079
08/30/89   A90688   PostawardAudit of Real Estate Management Services, Inc.,
                    Closing Invoices, Contract No. GS-04P-88-EWC-0103
08/30/89   A90751   Pre award Audit of Cost or Pricing Data: Indy Construction
                    Co., Inc., Contract No. GS05P89GBC0100
08/31/89   A90232   Preaward Audit of Claim for Increased Costs: Ronaly D.
                    Mayhew, Incorporated, Subcontractor to Centex Con-
                    struction Company, Inc., Contract No. GS-llB-19066
08/31/89   A90290   Preaward Audit of Lease Alteration Proposal: Lincoln Prop-
                    erty Company, Lease No. GS-llB-80202, 4th Floor East



                                                                                 35
08/31/89   A90607   Preaward Audit of Architect and Engineering Services
                    Contract: Designtech-East, Ltd., Contract No. GS-
                    llP89EGD0125
08/31/89   A90772   Preaward Audit of Architect and Engineering Services Con-
                    tract: Alphatec, P.C, Contract No. GSIIP89EGC0185
09/08/89   A90762   Preaward Audit of Lease Escalation Proposal: Federal Plaza
                    Associates, Lease No. GS-05B-13381 for Lease Year Ended
                    March 7,1989
09/08/89   A90780   Pre award Audit of Small Business Administration 8(a)
                    Pricing Proposal: World Wide Terminal Service Corp.
                    (S.1.), Solicitation No. GS-06P-89-GXC-0124
09/12/89   A90779   Preaward Audit of Architect and Engineering Services Con-
                    tract: Hickerson Fowlkes, Inc., Architects, Contract No.
                    GS-04P-89-EXC-0051
09/13/89   A90509   Audit of Lease Commission Payments to Cushman &
                    Wakefield of Georgia, Inc.
09/15/89   A90879   Preaward Audit of Architect and Engineering Services Con-
                    tract: Hanscomb Associates, Inc., Consultant to Spillis
                    Candela/Warnecke, Contract No. GSllP89EGC0l82
09/19/89   A90347   Preaward Audit of Change Order Proposal: Premium Time,
                    Bunker Metal Fabricators, Inc., Second Tier Subcontractor
                    to Terminal Construction Corp., Contract No. GS-02P-
                    23256
09/20/89   A90584   Preaward Audit of Change Order Proposal: Premium Time,
                    Worth Construction Company Inc., Subcontractor to Ter-
                    minal Construction Corporation, Contract No. GS-02P-
                    23256
09/22/89   A90716   Preaward Audit of Cost or Pricing Data: Foulger-Pratt Con-
                    struction, Inc., Contract No. GS-llP-8701
09/25/89   A90717   Preaward Audit of Cost or Pricing Data: Foulger-Pratt Con-
                    struction, Inc., Contract No. GS-llP-870l
09/26/89   A90421   Audit of Termination Proposal: Alvarado Construction,
                    Inc., Contract No. GS-07P-86-HUC-0156
09/26/89   A90550   Audit of Termination Proposal: Architectural Millwork,
                    Inc., Contract No. GS-07P-86-HUC-0156
09/26/89   A90551   Audit of Termination Proposal: Roberts Construction Co.,
                    Contract No. GS-07P-86-HUC-0l56
09/26/89   A90552   Audit of Termination Proposal: Natkin and Company,
                    Contract No. GS-07P-86-HUC-0156
09/27/89   A90732   Preaward Audit of Architect and Engineering Services Con-
                    tract: Mark Velsey and Martin Reddy Architects, Contract
                    No. GSllP88EGD0226
09/27/89   A90943   Pre award Audit of Architect and Engineering Services Con-
                    tract: Obermeier Bershof Goss Architects, P.C, Solicita-
                    tion No. GS-07P-89-HUC-0076
09/28/89   A90293   Preaward Audit of Lease Alteration Proposal: Lincoln Prop-
                    erty Company, Lease No. GS-llB-80202, 7th Floor East
09/28/89   A90781   Preaward Audit of Cost or Pricing Data: Metropolitan
                    Cleaning Corporation, Inc., Contract No. GS-11P-89-MJC-
                    0053
09/29/89   A90291   Preaward Audit of Lease Alteration Proposal: Lincoln Prop-
                    erty Company, Lease No. GS-IIB-80202, 5th Floor East


36
09/29/89   A90292   Preaward Audit of Lease Alteration Proposal: Lincoln Prop-
                    erty Company, Lease No. GS-11B-80202, 6th Floor East
09/29/89   A90715   Preaward Audit of Lease Escalation Proposal: Tower Build-
                    ing Joint Venture, Lease No. GS-03B-6295
09/29/89   A90850   Preaward Audit of Overhead Expenses and Rate: M.e.
                    Dean Electrical Contracting, Inc., Contract No. GS-
                    11P86MKC7299
09129/89   A90S55   Pre award Audit of Cost or Pricing Data: Foulger-Pratt Con-
                    struction, Inc., Lease No. GS-llB-90153
09/29/89   A90S78   Pre award Audit of Architect and Engineering Service Con-
                    tract: Walter H. Sobel, FAIA & Associates, Consultant to
                    Spillis Candela/Warnecke, Solicitation No. GS11P-
                    89EGC0182




FSS        Internal Audits
04/06/89   A80279   Review of Regional Fleet Management Operations
04/10/89   A90083   Review of Problems with the Federal Supply Service's Pur-
                    chase Order Form
04/11/89   A80776   Review of Fleet Management Center, Edison, NJ
04/18/89   A90331   Review of Discrepancy Reports, Center Imprest Fund
                    Procurements
04126/89   A90024   Review of the Travel Management Center Operated by
                    Provident Travel Service, Inc. Under Contract No. GS-OOF-
                    88046
05/02/89   A90024   Review of the Travel Management Center Operated by
                    Northwestern Business Travel Under Contract No.
                    GS-00F-88045
05/31/89   A80991   Review of Heritage Travel Management Center
05/31/89   A90126   Review of the Western Fleet Management Center, Region 3
                    Fleet Management Program, Washington, DC Office
06/13/89   A80368   Review of Time and Attendance Practices, Los Alamos
                    Fleet Management Center
06/13/89   A80530   Review of the Midwest Distribution Center Operations,         400
                    Region 5
06/19/89   A70780   Review of Shelf-Life Program at the Southwestern Whole-
                    sale Distribution Center
06/26/89   A90395   Review of the Eastern Fleet Management Center, Region 3
                    Fleet Management Program, Washington, DC Office
06/30/89   A90506   Review of Dimensions Travel Management Center
07/20/89   A80368   Review of the Centralized Maintenance Control Center,
                    Region 7
07/20/89   A90024   Review of the Travel Management Center Operated by Ask
                    Mr. Foster Travel Service Under Contract No. GS-OOF-
                    88044
OS/02/89   A90024   Review of the Travel Management Center Operated by
                    Bane One Travel Corporation Under Contract No. GS-05F-
                    13294


                                                                                        37
08/08/89   A90147   Review of Customer Supply Center Operations, Auburn,
                    Washington
08/10/89   A90484   Review of the FSS Contract Management Program,
                    Region 1
08123/89   A90024   Review of Contract Administration of Selected Travel
                    Management Centers, Region 6
08/31/89   A80054   Review of the Denver Customer Supply Center
08/31/89   A90764   Review of Gelco Travel Management Center
09/14/89   A90471   Review of Shelf-Life Products, Northeast Distribution
                    Center, Belle Mead, NL Region 3
09/21/89   A90546   Review of the Regional Maintenance Control Center, Re-
                    gion 3 Fleet Management Program, Washington, DC Office
09/28/89   A90103   Review of Transportation Audits, Phase II
09/28/89   A90765   Review of Sato Travel Management Center




FSS        Contract Audits
04/06/89   A90412   Preaward Audit of Cost or Pricing Data: Artistic Innova-
                    tors, Inc., Solicitation No. 2FY-EAJ-M-A3459-S
04/07/89   A90171   Pre award Audit of Cost or Pricing Data: Terra Furniture,
                    Inc., Contract No. GS-00F-94628
04/10/89   A80526   Postaward Audit of Multiple Award Schedule Contract:           343763   990314
                    Thomasville Furniture Industries, Inc., Contract No.
                    GS-00F-94586
04/11/89   A90272   Pre award Audit of Cost or Pricing Data: Armor Safe Corpo-
                    ration, Solicitation No. FCNO-87 -C803-B-3-3-88
04/13/89   A90448   Postaward Audit of Multiple Award Schedule Contract:
                    Ebsco Interiors, Contract No. GS-00F-68529 for the Period
                    September 5, 1984 Through July 31, 1987
04/14/89   A90301   Pre award Audit of Cost or Pricing Data: Tic-La-Dex Busi-
                    ness Systems, Inc., Solicitation No. 2FY-EAJ-M-A3459-S
04/14/89   A90411   Preaward Audit of Multiple Award Schedule Contract:
                    Homestead Industries, Inc., Jenny Division, Solicitation
                    No. 7FXI-E6-88-4905-B
04/14/89   A90446   Pre award Audit of Cost or Pricing Data: Fas-Frame Inc., So-
                    licitation No. 7FXG-K4-88-9911-B
04/17/89   A90252   Preaward Audit of Multiple Award Schedule Contract:
                    Curtin Matheson Scientific, Inc., Solicitation No. FCGS-
                    23-40012-N-1O-4-88
04/18/89   A90445   Pre award Audit of Multiple Award Schedule Contract:
                    Canon U.S.A., Inc., Solicitation No. FCGE-89-C207-B
04125/89   A90003   Preaward Audit of Multiple Award Schedule Contract:
                    AMF Bowling, Inc., Solicitation No. 7FXG-J3-88-7802-B
04128/89   A90224   Pre award Audit of Cost or Pricing Data: Caddylak Sys-
                    tems, Inc., Solicitation No. FCNOC-C9-2034-B-2-18-88
04/28/89   A90415   Pre award Audit of Cost or Pricing Data: Willshire Associ-
                    ates, Inc., Reference No. FCGX-SE-890007-N



38
05/01/89   A90404   Preaward Audit of Multiple Award Schedule Contract:
                    Midwest Trophy Mfg. Co., Inc., Solicitation No. 7FXG-K4-
                    88-9911-B
05/12/89   A90488   Pre award Audit of Cost or Pricing Data: ATI Industries, So-
                    licitation No. FCEP-BP-F8111-2N
05/18/89   A90368   Preaward Audit of Multiple Award Schedule Contract:
                    Simplex Time Recorder Co., Solicitation No. FCGE-89-
                    C207-B
05124/89   A90344   Preaward Audit of Multiple Award Schedule Contract:
                    Sharp Electronics Corp., Solicitation No. FCGE-89-C207-
                    B
05126/89   A90570   Preaward Audit of Cost or Pricing Data: American Body Ar-
                    mor & Equipment, Inc., Contract No. GS07F16464
05/31/89   A90221   Postaward Audit of Multiple Award Schedule Contract:
                    IBM Corporation, Contract No. GS-00F-69279
05/31189   A90423   Preaward Audit of Multiple Award Schedule Contract:
                    Barker Advertising Specialty Company, Inc., Solicitation
                    No. 7FXG-C4-88-9903-B
05/31189   A90637   Postaward Audit of Multiple Award Schedule Contract:            4014
                    Barker Advertising Specialty Company, Inc., Contract
                    No. GS07F13908 for the Period May 23, 1986 Through
                    April30, 1989
06/08/89   A90422   Pre award Audit of Cost or Pricing Data: BSN Sports, Solici-
                    tation No. 7FXG-J3-88-7802-B
06/09/89   A90472   Preaward Audit of Multiple Award Schedule Contract:
                    Stanley-Vidmar, Inc., Solicitation No. FCNH-89-F712-N-
                    10-19-88
06/09/89   A90535   Preaward Audit of Multiple Award Schedule Contract:
                    Belson Manufacturing Co., Inc., Solicitation No. 7FXG-
                    C3-88-7801-B
06/16/89   A90477   Preaward Audit of Multiple Award Schedule Contract:
                    Tektronix, Inc., Solicitation No. FCGS-X4-38011-1-26-89
06/16/89   A90510   Preaward Audit of Multiple Award Schedule Contract: Da-
                    tacard Corporation, Solicitation No. FCGE-89-C207-B
06121189   A90473   Preaward Audit of Cost or Pricing Data: Stanley-Vidmar,
                    Inc., Solicitation No. FCNH-89-F712-N-1O-19-88
06/23/89   A90718   Audit of Pricing Proposal Under RFP No. FCGS-X4-38011-
                    N-12-88, Argosystems, Inc.
06127/89   A90419   Preaward Audit of Multiple Award Schedule Contract:
                    Hugin Sweda, Inc., Solicitation No. FCGE-89-C207-B
06127/89   A90616   Postaward Audit of Multiple Award Schedule Contract:           18505
                    The Hotsy Corporation, Contract No. GS-07F-13789
06/28/89   A80675   Postaward Audit of Multiple Award Schedule Contract:           55972
                    Tennant Company, Contract No. GS-lOF-46853
06/28/89   A90379   Preaward Audit of Cost or Pricing Data: Crown Furniture
                    Manufacturing Incorporated, Solicitation No. FCNO-J2-
                    2027-N-9-22-88
06128/89   A90479   Postaward Audit of Multiple Award Schedule Contract:            1700
                    Caravelle Industries, Inc., Contract No. GS-07F-13895
06128/89   A90571   Preaward Audit of Multiple Award Schedule Contract: Gill
                    Group, Inc., Solicitation No. 7FXG-X4-88-7354-B



                                                                                           39
06/28/89   A90625   Preaward Audit of Cost or Pricing Data: Curtiss-Wright/
                    Marquette, Inc., Solicitation No. FCEN-SY-A8019-N
07/10/89   A90657   Preaward Audit of Multiple Award Schedule Contract: Hy-
                    torc of Virginia, Inc., Solicitation No. 6FEC-K7-89003-B
07/17/89   A90283   Postaward Audit of Multiple Award Schedule Contract:          39353
                    Kevex Corporation, Contract No. GS-00F-70276 for the
                    Period May I, 1984 Through April 30, 1987
07/19/89   A90540   Preaward Audit of Multiple Award Schedule Contract:
                    R.J. Thomas Mfg. Co., Inc., Solicitation No. 7FXG-C3-88-
                    780l-B
07/20/89   A90590   Preaward Audit of Multiple Award Schedule Contract:
                    Hewlett-Packard, Solicitation No. FCGS-Z6-40013-N-3-
                    30-89
07/21/89   A90402   Audit of Termination Settlement Proposal: Chemray Coat-
                    ings Corporation, Contract No. GS-lOF-50646
07/21/89   A90545   Postaward Audit of Multiple Award Schedule Contract:           18140
                    Homestead Industries, Inc., Jenny Division, Contract No.
                    GS07F13919 for the Period May 29, 1986 Through
                    March 31, 1989
07/28/89   A80536   Postaward Audit of Multiple Award Schedule Contract:
                    Penetone Corporation, Contract No. GS-00F-87463
07/31/89   A90609   Pre award Audit of Cost or Pricing Data: Global Helicopter
                    Technology, Inc., Solicitation No. FCGA-A8-QY229-N
08/02/89   A80409   Postaward Audit of Multiple Award Schedule Contract:
                    Professional Office Products, Contract No. GS-00F-85058
                    for the Period July 30, 1986 Through March 20, 1988
08/04/89   A90260   Postaward Audit of Multiple Award Schedule Contract:
                    North American Philips Lighting Corp., Contract No.
                    GS-07F-12031
08/11/89   A90474   Preaward Audit of Multiple Award Schedule Contract:
                    N/S Corporation, Solicitation No. 7FXI-E6-88-4905-B
08/15/89   A90542   Pre award Audit of Cost or Pricing Data: Huck Manufactur-
                    ing Company, Solicitation No. FCEP-BP-F8111-N
08/22/89   A80504   Postaward Audit of Multiple Award Schedule Contract:         1118339
                    Konica Business Machines U.S.A., Inc., Contract No.
                    GS-00F-77042 for the Period October 3, 1985 Through Sep-
                    tember 30, 1987
08/23/89   A90699   Pre award Audit of Multiple Award Schedule Contract:
                    Ingersoll-Rand Company, Solicitation No. 6FEC-K7-
                    89003-B
08/30/89   A90746   Preaward Audit of Multiple Award Schedule Contract:
                    Philips Consumer Electronics Co., Solicitation No. 7FXG-
                    Z3-89-7702-B
08/31/89   A90575   Postaward Audit of Multiple Award Schedule Contract:            6510
                    Kaplan School Supply Corporation, Contract No. GS-07F-
                    14365
08/31/89   A90575   Preaward Audit of Multiple Award Schedule Contract:
                    Kaplan School Supply Corporation, Solicitation No. 7FXG-
                    C3-88-7801-B
08/31/89   A90747   Preaward Audit of Multiple Award Schedule Contract:
                    Olivetti USA, Solicitation No. FCGE-89-C109N-4-27-89
09/07/89   A60576   Postaward Audit of Multiple Award Schedule Contract:         697582
                    Kroy, Inc., Contract No. GS-00F-69300

40
09/13/89   A90427   Postaward Audit of Kaplan School Supply Corporation,
                    Contract No. GS-00F-94036
09/14/89   A90691   Preaward Audit of Multiple Award Schedule Contract:
                    Black & Decker (U.S.) Inc., Solicitation No. 6FEC-K7-
                    89003-B
09/19/89   A90709   Pre award Audit of Cost or Pricing Data: Laminaire Corpo-
                    ration, Solicitation No. 7FXI-B5-88-6102-N
09/21/89   A60628   Postaward Audit of Multiple Award Schedule Contract:
                    Canon U.S.A., Inc., Contract No. GS-00S-63501 for the Pe-
                    riod October I, 1983 Through September 30, 1984
09/21/89   A60629   Postaward Audit of Multiple Award Schedule Contract:
                    Canon U.S.A., Inc., Contract No. GS-00F-77010 for the Pe-
                    riod October I, 1984 Through September 30, 1985
09/22/89   A90700   Pre award Audit of Multiple Award Schedule Contract: The
                    Lietz Company, Solicitation No. FCGS-89-Y2-03-B-5-18-
                    89
09/26/89   A90814   Pre award Audit of Cost or Pricing Data: Water Chemistry
                    Inc., Solicitation No. TFTC-88-MB-685B
09/27/89   A90612   Preaward Audit of Multiple Award Schedule Contract:
                    IBM Corporation, Solicitation No. FCGE-89-C109-N-4-
                    27-89
09/27/89   A90644   Postaward Audit of Multiple Award Schedule Contract:
                    Office Products International, Inc., Contract No. GS-02F-
                    48165 for the Period March I, 1987 Through February 28,
                    1990
09/28/89   A80832   Postaward Audit of Multiple Award Schedule Contract:
                    GNB Industrial Battery Company, Inc., (Formerly GNB
                    Batteries, Inc.), Contract No. GS-04F-0080l for the Period
                    May 24, 1984 Through May 31, 1987
09/29/89   A90711   Postaward Audit of Multiple Award Schedule Contract:          15607
                    N/S Corporation, Contract No. GS-07F-13780 for the Pe-
                    riod April 1, 1986 Through March 31, 1989
09/29/89   A90725   Preaward Audit of Multiple Award Schedule Contract:
                    Skil Corporation, Solicitation No. 6FEC-K7-89003-B
09/29/89   A90796   Preaward Audit of Requirements Contract: Kimberly-
                    Clark Corporation, Solicitation No. 7PRT-53330-R/K3/
                    7FX
09/29/89   A90804   Preaward Audit of Cost or Pricing Data: Finishing Enter-
                    prises, Solicitation No. FCGA-A3-QY449-N
09/29/89   A90836   Postaward Audit of Multiple Award Schedule Contract:         260520
                    Sioux Steam Cleaner Corp., Contract No. GS-07F-13776
                    for the Period April 1, 1986 Through March 31, 1989




IRMS       Internal Audits
04/14/89   A70756   Review of GSA Billings to the Federal Emergency Manage-
                    mentAgency
04/26/89   A80958   Review of the Security and Fire Safety of GSA Computer
                    Facilities, Region 3
06/05/89   A80854   Review of Microcomputer Data and Software Protection,
                    Region 5

                                                                                          41
06/14/89   A80431   Review of Microcomputer Data and Software Protection,
                    Region 2
07/06/89   A80955   Review of Microcomputer Data and Software Protection,
                    Region 3
08/04/89   A80834   Review of the Information Resources Management Service
                    Security Program, National Security Emergency Prepared-
                    ness Division
09/29/89   A80834   Review of the Information Resources Management Service
                    Security Program, Information Security Management
                    Division




IRMS       Contract Audits
04/10/89   A90240   Preaward Audit of Multiple Award Schedule Contract:
                    Ampex Corporation, Solicitation No. GSC-KESR-00050-
                    N-U-21-88
04/11/89   A90194   Preaward Audit of Multiple Award Schedule Contract:
                    Cabletron Systems, Inc., Solicitation No. GSC-KES-B-C-
                    00040-N-11-9-88
04112/89   A90311   Pre award Audit of Multiple Award Schedule Contract:
                    Bruning Computer Graphics, Solicitation No. GSC-KES-
                    B-C-00040-N-11-9-88
04119/89   A90244   Preaward Audit of Multiple Award Schedule Contract:
                    Carlisle Memory Products Group, Solicitation No. GSC-
                    KESV-OOOS2-N-11-29-88
04/19/89   A90333   Pre award Audit of Multiple Award Schedule Contract:
                    Nastec Corporation, Solicitation No. GSC-KES-B-C-
                    00040-N-1l-9-88
04/26/89   A90245   Pre award Audit of Multiple Award Schedule Contract:
                    Dell Marketing Corporation, Solicitation No. GSC-KES-
                    B-C-00040-N-11-9-88
04/27/89   A80946   Postaward Audit of Multiple Award Schedule Contract:      154410
                    Compaq Computer Corporation, Contract No. GS-OOK-
                    87-AGS-6036
04/28/89   A90267   Preaward Audit of Cost or Pricing Data: Compucom Sys-
                    tems, Inc., Solicitation No. GSC-KESS-B-00040-N-11-9-88
05/01/89   A80816   Postaward Audit of Multiple Award Schedule Contract:       63938
                    Tandy/Radio Shack, Inc., Contract No. GS-00K-87-AGS-
                    6001
05/02/89   A90258   Pre award Audit of Multiple Award Schedule Contract:
                    Texas Instruments, Inc., Solicitation No. GSC-KES-B-C-
                    00040-11-9-88
05/05/89   A80926   Postaward Audit of Multiple Award Schedule Contract:      433629
                    Silicon Graphics, Incorporated, Contract No. GS-OOK-
                    87AGS-58S4 for the Period October I, 1987 Through Sep-
                    tember 30, 1988
05/05/89   A80927   Postaward Audit of Multiple Award Schedule Contract:      42090
                    Silicon Graphics, Incorporated, Contract No. GS-OOK-
                    87AGS-58S4 for the Period November 13, 1986 Through
                    September 30, 1987

42
05/11/89   A90312   Preaward Audit of Multiple Award Schedule Contract:
                    Grid Systems Corporation, Solicitation No. GSC-KES-B-
                    C-00040-N-11-9-88
05/16/89   A90429   Preaward Audit of Multiple Award Schedule Contract:
                    Federal Sales Service, Inc., Solicitation No. GSC-KESV-
                    00052-N-1l-29-88
05/18/89   A90430   Preaward Audit of Cost or Pricing Data: Federal Sales
                    Service, Inc., Solicitation No. GSC-KES-B-C-00040-N-ll-
                    9-88
06/05/89   A90424   Postaward Audit of Multiple Award Schedule Contract:
                    Cabletron Systems, Inc., Contract No. GSOOK87 AGS5387
                    PS01 for the Period April 1, 1988 Through March 31, 1989
06/09/89   A90539   Pre award Audit of Multiple Award Schedule Contract: Da-
                    tasec Corporation, Solicitation No. GSC-KES-B-C-00040-
                    N-ll-9-88
06/21/89   A90595   Pre award Audit of Multiple Award Schedule Contract: He-
                    tra Computer and Communications Industries, Inc., So-
                    licitation No. GSC-KESO-C-00041-N-12-89
06/23/89   A90719   Preaward Audit of Cost or Pricing Data: Datatape, Incor-
                    porated, Solicitation No. GSC-KESR-00051-N-4-12-89
06/28/89   A90569   Pre award Audit of Cost or Pricing Data: C3, Inc., Solicita-
                    tion No. GSC-KESO-C-00041-N-4-12-89
06/28/89   A90671   Pre award Audit of Cost or Pricing Data: Demo, Inc., Solic-
                    itation No. GSC-KESV-00054-N-4-20-89
06/30/89   A90611   Preaward Audit of Multiple Award Schedule Contract:
                    Recognition Equipment, Inc., Solicitation No. GSC-
                    KESO-C-00041-N-4-12-89
06/30/89   A90707   Audit of Incurred Costs: American Management Systems,
                    Inc., Contract No. GSC-OIT-6076
07/06/89   A90622   Preaward Audit of Cost or Pricing Data: Norden Service
                    Company, Inc., Solicitation No. GSC-KESO-C-00041-N-4-
                    12-89
07/11/89   A90598   Preaward Audit of Multiple Award Schedule Contract: On-
                    Line Software International, Inc., Solicitation No. GSC-
                    KESO-C-00041-N-4-12-89
07/11/89   A90740   Preaward Audit of Cost or Pricing Data: Intelect, Inc.,
                    Solicitation No. GSC-KESV-00054-N-4-20-89
07/14/89   A90623   Pre award Audit of Cost or Pricing Data: International
                    Data Corporation, Solicitation No. GSC-KESO-C-00041-
                    N-4-12-89
07/18/89   A60330   Postaward Audit of Multiple Award Schedule Contract:
                    Concurrent Computer Corporation (Formerly Perkin-
                    Elmer Data Systems Group), Contract No. GS-00C-03590
07/19/89   A60331   Postaward Audit of Multiple Award Schedule Contract:
                    Concurrent Computer Corporation (Formerly Perkin-
                    Elmer Data Systems Group), Contract No. GS-
                    00K8401S5814
07/19/89   A90578   Preaward Audit of Multiple Award Schedule Contract:
                    Candle Corporation, Solicitation No. GSC-KESO-C-
                    00041-N-4-12-89
07/21/89   A60332   Postaward Audit of Multiple Award Schedule Contract:
                    Concurrent Computer Corporation (Formerly Perkin-
                    Elmer Data Systems Group), Contract No. GS-
                    OOK8501S5882

                                                                                   43
07/21/89   A90675   Preaward Audit of Multiple Award Schedule Contract:
                    AGS Management Systems, Inc., Solicitation No. GSC-
                    KESO-C-00041-N-4-12-89
07/24/89   A90629   Preaward Audit of Multiple Award Schedule Contract:
                    Plantronics, Inc., Solicitation No. GSC-KESR-00053-N-
                    04-25-89
07/25/89   A90626   Preaward Audit of Multiple Award Schedule Contract:
                    Cognitronics Corporation, Solicitation No. GSC-KESR-
                    00053-N-04-25-89
07/27/89   A90602   Preaward Audit of Multiple Award Schedule Contract:
                    Control Data Corporation, Solicitation No. GSC-KESO-C-
                    00041-N-4-12-89
07/28/89   A90599   Pre award Audit of Multiple Award Schedule Contract: Ra-
                    tional, Solicitation No. GSC-KESO-C-00039-N-4-13-88
07/28/89   A90600   Pre award Audit of Multiple Award Schedule Contract: Sof-
                    tool Corporation, Solicitation No. GSC-KESO-C-00041-
                    N-4-12-89
07/28/89   A90649   Preaward Audit of Multiple Award Schedule Contract:
                    McCaw Cellular Communications, Inc., Solicitation No.
                    GSC-KESR-00053-N-04-25-89
07/31/89   A90642   Pre award Audit of Multiple Award Schedule Contract:
                    Northern Telecom, Inc., Solicitation No. GSC-KESO-C-
                    00041-N-4-12-89
07/31/89   A90670   Preaward Audit of Multiple Award Schedule Contract:
                    Systems Center, Inc., Solicitation No. GSC-KESO-C-
                    00041-N-4-12-89
08/03/89   A90801   Preaward Audit of Cost or Pricing Data: Datum, Inc., So-
                    licitation No. GSC-KESO-00041-N-4-12-89
08/04/89   A90544   Audit of Termination Settlement Proposal: Trinet, Inc.,
                    Contract No. GSllK88BJD0104
08/09/89   A90735   Pre award Audit of Change Order Proposal: Southwestern
                    Bell Telecommunications, Inc., Contract No. GS-06F-
                    12784
08/10/89   A90754   Pre award Audit of Cost or Pricing Data: Computer Sci-
                    ences Corporation, Applied Technology Division, RFP No.
                    GSOOK8502D2416
08/15/89   A80902   Postaward Audit of Multiple Award Schedule Contract:        29960
                    Telex Computer Products, Inc., Contract No. GS-00K-84-
                    O1S-5531
08/16/89   A90633   Pre award Audit of Multiple Award Schedule Contract: Xe-
                    rox Corporation, Solicitation No. GSC-KESO-00041-N-4-
                    12-89
08/17/89   A90736   Preaward Audit of Change Order Proposal: Southwestern
                    Bell Telecommunications, Inc., Contract No. GS-06F-
                    12784
08/22/89   A90586   Pre award Audit of Multiple Award Schedule Contract:
                    Pansophic Systems, Inc., Solicitation No. GSC-KESO-C-
                    00041-N -4-12-89
08/22/89   A90606   Pre award Audit of Multiple Award Schedule Contract:
                    Southwestern Bell Freedom Phone, Solicitation No. GSC-
                    KESR-00053-N-04-25-89




44
08/22189   A90608   Preaward Audit of Multiple Award Schedule Contract:
                    Goal Systems International, Inc., Solicitation No. GSC-
                    KESO-C-00041-N -4-12-89
08122189   A90794   Postaward Audit of Multiple Award Schedule Contract:        1927
                    Pansophic Systems, Inc., Contract No. GS-00K-89AGS-
                    5517 for the Period October I, 1988 Through September 30,
                    1989
08123/89   A90610   Preaward Audit of Multiple Award Schedule Contract: Tel-
                    labs, Inc., Solicitation No. GSC-KESR-00053-N-04-25-89
08124/89   A90761   Preaward Audit of Multiple Award Schedule Contract: Sil-
                    icon Graphics, Inc., Solicitation No. GSC-KESO-C-00041-
                    N-4-12-89
08129/89   A90679   Pre award Audit of Cost or Pricing Data: Maximus, Incor-
                    porated, Solicitation No. GSC-KECT-A-0001O-N-4-25-89
08/29/89   A90753   Preaward Audit of Multiple Award Schedule Contract: Mi-
                    tel, Inc., Solicitation No. GSC-KESR-00053-N-04-25-89
08/30/89   A90605   Preaward Audit of Multiple Award Schedule Contract:
                    Comshare Incorporated, Solicitation No. GSC-KESO-C-
                    00041-N-4-12-89
08/30/89   A90672   Pre award Audit of Multiple Award Schedule Contract:
                    Sharebase (Britton Lee, Inc.)' Contract No. GS-00K-89-
                    AGS-5579
08/31189   A90639   Pre award Audit of Multiple Award Schedule Contract:
                    Canon USA, Inc., Solicitation No. GSC-KESR-00053-N-4-
                    25-89
08/31189   A90769   Preaward Audit of Multiple Award Schedule Contract:
                    Megatek Corporation, Solicitation No. GSC-KESO-C-
                    00041-N-4-12-89
08/31189   A90874   Review of Application of Agreed Upon Procedures for Ini-
                    tial Pricing Under RFP No. GSC-KESV-00054-N-4-20-89,
                    Denro, Incorporated
09/05/89   A90701   Preaward Audit of Multiple Award Schedule Contract:
                    Dictaphone Corporation, Solicitation No. GSC-KESR-
                    00053-N-04-25-89
09/06/89   A90682   Audit of Termination Proposal: Advanced Technology, In-
                    corporated, Delivery Order No. K0088AJ0569, Contract
                    No. MDA903-87-D-9002
09/06/89   A90723   Preaward Audit of Cost or Pricing Data: Household Data
                    Services, Inc., Solicitation No. GSC-KESV-00054-N-4-20-
                    89
09/08/89   A90733   Pre award Audit of Cost or Pricing Data: Federal Sales
                    Service, Inc., Solicitation No. GSC-KESV-000S2-N-1l-29-
                    89
09/08/89   A90734   Pre award Audit of Cost or Pricing Data: Federal Sales
                    Service, Inc., Solicitation No. GSC-KES-B-C-00040-N-ll-
                    9-88
09/08/89   A90816   Preaward Audit of Cost or Pricing Data: Abacus Technol-
                    ogy Corporation, RFP No. KECP-89-004
09/12189   A90727   Preaward Audit of Multiple Award Schedule Contract:
                    Sorbus Inc., Solicitation No. GSC-KESO-C-00041-N-4-12-
                    89




                                                                                       45
09/13/89   A80095   Postaward Audit of Multiple Award Schedule Contract:
                    Ungerrnann-Bass, Inc., Contract No .. GSOOK85AGS5161,
                    MOD. PS01, for the Period April I, 1986 Through
                    March 31, 1987
09/13/89   A90752   Preaward Audit of Multiple Award Schedule Contract:
                    Walker Interactive Systems, Solicitation No. GSC-KESO-
                    C-00041-N-4-12-89
09/19/89   A90665   Preaward Audit of Multiple Award Schedule Contract:
                    Prime Computer, Inc., Solicitation No. GSC-KESO-C-
                    00041-N-4-12-89
09/22/89   A80391   Postaward Audit of Multiple Award Schedule Contract:         63090
                    Wang Laboratories, Inc., Contract No. GSOOK850lS5875
                    for the Period October I, 1984 Through September 30,
                    1985
09/22/89   A80391   Postaward Audit of Multiple Award Schedule Contract:
                    Wang Laboratories, Inc., Contract No. GSOOK8401S5837
                    for the Period February I, 1984 Through September 30,
                    1984
09/22/89   A80391   Postaward Audit of Multiple Award Schedule Contract:        206434
                    Wang Laboratories, Inc., Contract Nos. GSOOK-
                    86AGS5603 and GSOOK86AGS5603 MOD I-A (Option Yr.
                    1) for the Period October I, 1985 Through September 30,
                    1987
09/22/89   A90805   Preaward Audit of Cost or Pricing Data: Vion Corporation,
                    Solicitation No. GSC-KESO-C-00041-N-04-12-89
09/25/89   A70023   Postaward Audit of Multiple Award Schedule Contract:          8021
                    Grid Systems Corporation, Contract No. GSOOK-
                    8401S6044 for the Period April 19, 1984 Through
                    March 31,1985
09/25/89   A70570   Postaward Audit of Multiple Award Schedule Contract:
                    Ungermann-Bass, Inc., Contract No. GSOOK840lS5180
                    for the Period June 19, 1984 Through March 31, 1985
09/25/89   A70571   Postaward Audit of Multiple Award Schedule Contract:
                    Ungermann-Bass, Inc., Contract No. GSOOK85AGS5161
                    for the Period May 24, 1985 Through March 31, 1986
09/25/89   A90636   Preaward Audit of Multiple Award Schedule Contract:
                    Hewlett-Packard, Solicitation No. GSC-KESO-C-00041-
                    N-4-12-89
09/25/89   A90802   Preaward Audit of Cost or Pricing Data: Delta Data Sys-
                    tems Corporation, Solicitation No. GSC-KES-B-C-00040-
                    N-11-9-88
09/25/89   A90892   Pre award Audit of Multiple Award Schedule Contract:
                    Arix Corporation, Solicitation No. GSC-KESO-C-00041-
                    N-4-12-89
09/26/89   A90597   Preaward Audit of Multiple Award Schedule Contract: Sun
                    Microsystems Federal, Inc., Solicitation No. GSC-KESO-
                    C-00041-N-4-12-89
09/26/89   A90849   Preaward Audit of Multiple Award Schedule Contract: In-
                    tellicorp, Inc., Contract No. GS-00K-89-AGS-5512
09/26/89   A90895   Audit of Termination Proposal: Keydata Systems, Inc.,
                    Contract No. GS-OOK88AF-D2218
09i27/89   A90811   Audit of Overbillings: Tel Plus Communications, Inc.,       28438
                    Contract No. GSOOK88AGS0478



46
09/28/89   A90621   Pre award Audit of Cost or Pricing Data: Racal Communi-
                    cations, Inc., Solicitation No. GSC-KESV-00054-N-4-20-
                    89
09/28/89   A90811   Preaward Audit of Multiple Award Schedule Contract: Tel
                    Plus Communications, Inc., Solicitation No. GSC-KESR-
                    00053-N-04-25-89
09/29/89   A60282   Postaward Audit of Multiple Award Schedule Contract:        105411
                    Grid Systems Corporation, Contract No. GSOOK-
                    830IS6026 for the Period April 6, 1983 Through March 31,
                    1984
09/29/89   A90660   Preaward Audit of Multiple Award Schedule Contract:
                    Motorola, Inc., Communications Sector, Solicitation No.
                    GSC-KESV-00054-N-4-20-89
09/29/89   A90664   Pre award Audit of Multiple Award Schedule Contract:
                    Digital Equipment Corporation, Solicitation No. GSC-
                    KESO-C-00041-N-4-12-89
09/29/89   A90750   Preaward Audit of Multiple Award Schedule Contract:
                    Network Systems Corporation, Solicitation No. GSC-
                    KESO-C-00041-N-4-12-89
09/29/89   A90817   Preaward Audit of Multiple Award Schedule Contract:
                    Emulex Corporation, Solicitation No. GSC-KESO-C-
                    00041-N-4-12-89
09/29/89   A90831   Preaward Audit of Multiple Award Schedule Contract: XA
                    Systems Corporation, Solicitation No. GSC-KESO-C-
                    00041-N-4-12-89



Other Internal Audits
04/07/89   A90270   Review of Imprest Fund Operations, Public Buildings
                    Service Field Office, 401 Market Street, Room B-6, Cam-
                    den, New Jersey
04/07/89   A90352   Review of Time and Attendance Practices
04/10/89   A80802   Review of Imprest Fund, Anchorage Field Office, Region 9
04/12189   A90359   Review of Imprest Fund, Auburn Fleet Management Cen-
                    ter, Region 9
04/13/89   A90163   Review of CASU Mail Operations in Fort Worth, Texas
04/25/89   A90220   Review of Imprest Fund and Travelers Checks, Region 7,
                    Office of Finance
04/26/89   A90088   Review of Cash (Treasury) Reconciliation Statement
04/28/89   A90492   Review of Imprest Fund, John O. Pastore Federal Building,
                    Providence, RI
05/03/89   A90534   Review of Imprest Fund, Albany Buildings Management
                    Field Office, Albany, New York
05/04/89   A90349   Review of Imprest Fund, Sansome Street Field Office, Re-
                    gion9
05/12189   A80569   Review of the A-76 Program, A-76 Project lOPMM048,
                    Region 9
05/18/89   A70757   Review of Income and Expense Accounting Procedures
                    Relative to Duplicating and Printing Plants



                                                                                         47
OS/23/89   A90253   Review of Imprest Fund, Cincinnati Field Office, Region 5
OS/26/89   A90370   Review of GSA Lockbox Procedures, Region 7
06/05/89   A90525   Review of Imprest Fund at the Battery Buildings Manage-
                    ment Field Office
06/07/89   A90239   Review of Lockbox Procedures, Region 6
06/16/89   A80569   Review of the A-7 6 Program, Region 9
06/16/89   A90233   Review of Fleet Management Petroleum Accruals
06/26/89   A90391   Review of Imprest Fund, Akron Field Office, Region 5
06/26/89   A90515   Review of Imprest Fund, GSA Regional Office Building,
                    Kansas City, Missouri
07/06/89   A90519   Review of Imprest Fund, Birmingham Field Office, Region
                    4
07/06/89   A90724   Review of Imprest Fund, Denver Fleet Management Cen-
                    ter
07/07/89   A90261   Review of GSA's Fast Track Award Program
07/11/89   A90668   Review of Imprest Fund, Public Buildings Service Field
                    Office, Lincoln, Nebraska
07124/89   A80620   Review of Non-Federal Receivables for the Automated
                    Data Processing Fund
07125/89   A90561   Review of Imprest Fund, Phoenix Fleet Management Cen-
                    ter, Region 9
07/27/89   A90760   Review of Imprest Fund, Utah Field Office
08/02/89   A90560   Review of Imprest Fund, Phoenix Field Office, Region 9
08/09/89   A90748   Review of Imprest Fund, Abraham A. Ribocoff Federal
                    Building, Hartford, CT
08/17/89   A90673   Review of Imprest Fund, Harrisburg Sub-field Office, Har-
                    risburg, PA
08/29/89   A90524   Review of Adjusting Entries
09/08/89   A90646   Review of Public Benefit Conveyances of Real Property,
                    Region 5
09/11189   A90230   Review of Printing Plant 89, National Capital Region
09/13/89   A80778   Review of Time and Attendance Practices, Region 5
09/14/89   A90565   Review of Imprest Fund, Denver Federal Center
09/26/89   A90508   Review of Printing Plant 33 Operations, Richard B. Russell
                    Federal Building, Atlanta, Georgia




48
09/28/89   A90222   Review of Controls Over the IT Fund Vans Program Pay-
                    ment and Billing Operations



Other Contract Audits
04/03/89   A90377   Audit of Subcontractor Report: Computer Science
                    Corporation-Infonet, Contract No. GS-00K-88AFS1222
04/05/89   A90376   Audit of Subcontractor Reports: Kaiser Engineers, Inc.,
                    Contract No. GS-IIB-69035
07/19/89   A90722   Audit of Subcontractor Reports: Southwestern Bell Tele-
                    com, Inc., Contract No. GS-06F-12784
09/08/89   A90702   Audit of Summary Subcontract Report (Standard Form
                    295): Prime Computer, Inc., for the Period October I,
                    1987 Through September 30, 1988
09/21/89   A90789   Audit of Subcontractor Report: Shaw-Walker Company



Non-
GSA        Internal Audits
05/15/89   A90257   Review of the Administrative Procedures of the Board for
                    International Broadcasting
05/15/89   A90487   Review of Imprest Fund, U.S. Merit Systems Protection
                    Board New York Regional Office
06/07/89   A90656   Review of Imprest Fund, U.S. Merit Systems Protection
                    Board, San Francisco, California
06/08/89   A90613   Review of Imprest Fund, U.S. Merit Systems Protection
                    Board, Seattle, Washington
06/14/89   A90620   Review of Imprest Fund, U.S. Merit Systems Protection
                    Board, Philadelphia Regional Office
06/27/89   A90604   Review of Imprest Fund, U.S. Merit Systems Protection
                    Board, Dallas, Texas
07/18/89   A90594   Review of Imprest Fund, U.S. Merit Systems Protection
                    Board, Atlanta, Georgia
08/25/89   A90842   Review of Imprest Fund, U.S. Merit Systems Protection
                    Board, Boston, MA, Regional Office




                                                                               49
                                                                          DEBTS

GSA's Office of Comptroller provided the information                    on upgrading collections functions and enhancing debt
presented herein.                                                       management. These activities included the following:
                                                                          l/1li   Installed a credit card point of sale terminal to
                                                                                  collect reimbursements for information provided
                                                                                  to the public.
                                                                          l/1li   Referred 877 delinquent accounts, valued at ap-
                                                                                  proximately $1,170,000, to debt collection con-
             COLLECTION                                                           tractors for collection.
                                                                          l/1li   Reviewed accounts receivable operations in one
                                                                                  region to ensure compliance with the provisions
During the period April 1, 1989 through September 30,                             of the Debt Collection Act of 1982. This review
1989, GSA efforts to improve debt collection and reduce                           included examinations of account servicing pro-
the amount of debt written off as uncollectible focused                           cedures for non-Federal activity.



NON..FEDERAL ACCOUNTS
RECEIVABLE

                                                                    As of                  As of
                                                                 April 1, 1989       September 30, 1989          Difference
     Total Amounts Due GSA ............................. .        $44,413,081              $56,334,307           $11,921,226
     Amount Delinquent ..................................... .    $18,959,900              $26,769,913           $ 7,810,073
     Total Amount Written Off as Uncollectible
       Between 4/1/89 and 9/30/89 ................. ..             $766,792

Of the total amounts due GSA and the amounts delin-                     $lO million and $17.7 million, respectively, are being
quent as of April I, 1989 and September 30, 1989,                       disputed.




50
APPENDIX III-SUMMARY                                            OIG PERFORMANCE
DURING FISCAL YEAR 1989

During Fiscal Year 1989, OrG activities resulted in:        0   Civil complaints against 10 individuals and
  0   904 audit reports.                                        6 civil settlements and judgments.
  0   46 implementation reviews of internal audit re-       o   10 referrals to other Federal and State agencies for
      ports.                                                    further investigation.
  0   Over $265 million in recommendations that             0   33 reprimands, 9 suspensions, and 4 terminations
      funds be put to better use and questioned costs.          of GSA employees.
  0   Management decisions to put almost $221 mil-          o   6 case referrals recommending suspension of
      lion in funds to better use.                              30 contractors.
  0   Management decisions to recover funds, volun-
      tary recoveries, court-ordered recoveries, and in-    0   30 case referrals recommending debarment of
      vestigative recoveries of over $15 million.               124 contractors.
  0   390 new investigations opened and 398 cases           0   38 contractor suspensions and 66 contractor de-
      closed.                                                   barments.
  0   51 case referrals (86 subjects) accepted for crimi-   0   50 OIG subpoenas.
      nal prosecution and 11 case referrals (17 subjects)
      accepted for civil litigation.                        0   494 legislative matters and 200 regulations and
                                                                directives reviewed.
  0   43 criminal indictments/ informations/ com-
      plaints and 47 successful prosecutions on crimi-      0   186 Hotline calls and letters, 11 GAO referrals,
      nal matters referred.                                     and 21 other agency referrals.




                                                                                                                  51
NOTES
NOTES
NOTES
